<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                       WEDNESDAY, MARCH 27, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 3:00 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Cindy Hyde-Smith (Chairman) 
presiding.
    Present: Senators Hyde-Smith, Lankford, Murphy, and Van 
Hollen.

            LIBRARY OF CONGRESS AND ARCHITECT OF THE CAPITOL


             opening statement of senator cindy hyde-smith


    Senator Hyde-Smith. Good afternoon. The subcommittee will 
come to order. I'd like to welcome everyone to the first of our 
fiscal year 2020 budget hearings for the Legislative Branch 
Appropriations Subcommittee. It is also my first hearing as 
Chairman of this subcommittee. I'm grateful to have the 
opportunity, and I'm very grateful that my Mississippi 
architects came to this first meeting. Thank you for being 
here. I look forward to working with my Ranking Member, Senator 
Murphy, and the distinguished Members of this subcommittee in 
crafting responsible funding legislation that supports the 
entire legislative branch of government.
    Today we have with us the Honorable Carla Hayden, Librarian 
of Congress, and Christine Merdon, Acting Architect of the 
Capitol. I appreciate your willingness to appear before the 
subcommittee today, and I certainly look forward to hearing 
your testimony. I'd also like to thank both of you for taking 
the time to meet with me before the hearings and giving me that 
great introduction to your agencies.
    Dr. Hayden, it was a pleasure to visit with you and to see 
some of the treasures that the Library keeps as part of our 
Nation's collection. And I especially enjoyed reading the draft 
report by Clarence Kerns, of the Federal Writers Project, 
describing agriculture on the Mississippi Gulf Coast in the 
1930s. So thank you for sharing that special information with 
me.
    And, Ms. Merdon, I appreciate the time we had together in 
my office discussing the Architect of the Capitol's 
jurisdiction, and I'm very pleased to learn that you have some 
Mississippi State University architect grads working on the AOC 
Planning and Project Management Division and the Senate Office 
Buildings jurisdiction.
    I also want to thank your team for their help in my recent 
office move. We greatly appreciate the hard work, and it sure 
went smoothly. It was amazing just what a system that you have. 
It was really good and almost painless.
    Before we discuss the specific details of your requests, I 
would like to touch on the overall outlook of the fiscal year 
2020. Under current law, and absent a new budget agreement, we 
are looking at significant decreases to discretionary spending 
across the government. We must be responsible and thoughtful in 
how we allocate funding.
    We begin this year's appropriations process not knowing 
what kind of increases we will be able to accommodate, which 
makes it even more important that we fully understand each of 
your agency's greatest needs.
    This year, the total budget request for the Library of 
Congress is $803 million, which is comprised of offsetting 
collections and an appropriation of $747 million. This 
represents an increase in appropriations of $51 million, or 7.3 
percent, above the fiscal year 2019 enacted levels. This 
funding level will support continued investment in IT 
modernization, funding for Congress.gov improvements, and an 
additional investment in the Library's plan for an enhanced 
visitors experience at the Thomas Jefferson Building.
    The AOC request for fiscal year 2020 totals $832 million, 
an increase of $98 million, or 13.3 percent, above the fiscal 
year 2019 enacted levels. This increase is requested for 
capital projects across the campus, as well as a $24 million 
increase in the Capital Construction and Operations 
jurisdiction for project management support, IT services, and 
cybersecurity investments.
    I look forward to hearing more about these requests and 
having a productive discussion today.
    Now I will turn to my Ranking Member, Senator Murphy, for 
any remarks that he would like to make.


                statement of senator christopher murphy


    Senator Murphy. Well, thank you very much, Senator Hyde-
Smith. Welcome to the subcommittee. We are really excited, I 
think, to do great work together. This is a subcommittee in 
which we have always found it relatively easy to find a 
bipartisan balance and bipartisan wellspring of support for the 
great work that our agencies who labor here with us and around 
the Capitol.
    I do note the presence of a former Chairman of the 
subcommittee, Senator Lankford, here with us as well.
    So we're really looking forward to both of your 
testimonies.
    Dr. Hayden, you know, the Library is often called one of 
Washington's hidden gems. It shouldn't be. It should be as 
easily accessible and knowable as all of the other landmarks. 
And I'm excited that you remain committed to that project of 
opening up the Library of Congress to others. We provided a $10 
million downpayment in the fiscal year 2018 omnibus to kick off 
planning for this new Visitors Experience, and I'm interested 
today to get an update on the Master Plan and to answer some 
questions about projected costs.
    Ms. Merdon, thanks for taking the time to sit down with me. 
We note the growing backlog that continues to exist and persist 
inside the Architect of the Capitol, $1.5 billion. This does 
not come without costs and risks and threats to the people that 
work on this campus. And so we need to continue to attack it. 
And I'd love to hear from you today about how we balance 
between the preservation of our historic Capitol and then 
legitimate security needs that we have here.
    And then I'll also ask you at least one question regarding 
how the AOC manages its Construction Division's workforce and 
workload. As you know, Senator Klobuchar and I sent a letter to 
you recently about the layoff of about 30 staff people, and we 
want to make sure that we are managing staff in a way that 
avoids unnecessary layoffs as much as possible.
    Finally, I just join in Senator Hyde-Smith's caution about 
the path moving forward. We're talking about a 9-percent cut to 
your budgets if we don't come to a new agreement. And it 
doesn't do anybody any good for us to wait until the last 
minute to get that done, in part because you are both engaged 
in long-term planning projects. And so this constant peril of 
not knowing how much you are going to get is just an absolutely 
miserable way to run two organizations that are heavily 
dependent on long-term capital budgets, and hopefully we can 
avoid that situation for you once again.
    I look forward to your testimony.
    Senator Hyde-Smith. Thank you, Senator Murphy.
    And, Senator Lankford, so glad to have you. Would you like 
to make any opening comments?
    Senator Lankford. Not today. Thank you.
    Senator Hyde-Smith. Okay.
    I will now ask our witnesses, beginning with Dr. Hayden, to 
give a brief opening statement of approximately 5 minutes to 
allow adequate time for questions. The written testimony of 
each witness will be printed in full in the hearing record.
    Dr. Hayden, the floor is yours.
STATEMENT OF THE HON. CARLA D. HAYDEN, LIBRARIAN OF 
            CONGRESS
    Dr. Hayden. Well, thank you, Madam Chairman, Ranking Member 
Murphy, and Senator Lankford. This is a wonderful opportunity 
to provide testimony on the Library's fiscal year 2020 budget.
    I am now in my third year as Librarian of Congress, and I'm 
encouraged by the advancements we've made in sharing more of 
the Library's extraordinary collections and our staff's 
expertise, and our commitment to public service.
    Today, the Library holds more than 170 million items in all 
formats and languages, and has the world's largest collections 
of legal materials, films, and sound recordings. And last year, 
the Library welcomed nearly 1.9 million in-person visitors. The 
Congressional Research Service provided custom services to 
nearly 100 percent of Senate and House Member offices and 
standing committees, more than 450,000 claims were registered 
by the U.S. Copyright Office, and nearly 10 million 
preservation actions were performed on the physical 
collections. Over 20.9 million copies of braille and recorded 
books and magazines were circulated. The Library responded to 
over 1 million reference requests from Congress, the public, 
and Federal agencies. And the Library's websites received 100 
million visitors and 500 million page views. And in the past 
year, we have also completed organizational changes that 
streamlined our functions and supported a user-centered 
direction.
    And today I would like to formally announce the appointment 
of Karyn Temple to serve as the 13th United States Register of 
Copyrights. Ms. Temple, who is here today, has performed an 
excellent job as Acting Register for the last 2\1/2\ years. She 
has leveraged her skills as both a copyright lawyer and 
accomplished manager to provide exceptional leadership for the 
Copyright Office. Members of Congress urged me to move forward 
with her permanent appointment to lead the Copyright Office. So 
with strong support from Congress and copyright stakeholders, I 
am pleased that Ms. Temple has accepted her appointment as a 
permanent Register.
    I also greatly appreciate the support you gave in the 2019 
funding bill to meet high-priority needs, such as strengthening 
CRS staffing, restoration of copyright examiner workforce, 
support for hosting the legislative branch financial management 
system, hiring librarians and archivists to address a backlog 
in processing special collections, and much more. And so today, 
I am before you to ask for your consideration of our fiscal 
year 2020 request.
    In October, we launched a 2019 to 2023 Strategic Plan with 
four goals: expand access, enhance services, optimize 
resources, and measure impact. And the Library produced its 
first digital strategy, which complements the Strategic Plan 
and was recently released to guide the Library's digital 
transformation.
    The Library of Congress budget request for 2020 is for 
approximately $803 million, and it includes $26 million in 
mandatory pay and price level increases. And the balance of the 
increase represents critical program investments necessary to 
fulfill the Library's role and to move forward.
    Bringing the Nation's collections and histories out of the 
vaults and into the public spaces through a unique public-
private partnership to enhance the visitor experience in the 
Thomas Jefferson Building remains a key avenue to expanding our 
access. We recently provided Congress with an update of our 
work to date--visuals are here today--on the Visitor Experience 
Master Plan, which envisions revitalizing exhibit spaces, 
creating an activities area for young people and lifelong 
learners and also having a welcoming orientation space where 
visitors can see Thomas Jefferson's Library as the foundation 
of the Library of Congress and look up into the inspiring Main 
Reading Room.
    Information technology requests continue with our 
modernization begun in fiscal year 2018, and that includes 
hybrid hosting; robust wireless networks; and enhanced network 
capabilities; also funding for Congress.gov, the official 
website for legislative data; and also funding to support the 
modernization of the National Library for Services for the 
Blind and Physically Handicapped. Our request also includes 
funding to optimize the policies, processes, tools, and staff 
capacity of the Financial Services Directorate vital to the 
Library, but also the entire legislative branch.
    And so, in closing, modernization and optimization, not 
only of our IT systems, but of the experiences visitors have 
when they come to the Library in person and digitally are 
critical to moving the Library forward.
    I look forward to your questions.
    [The statements follow:]
               Prepared Statement of Hon. Carla D. Hayden
Madam Chairman, Ranking Member Murphy, and Members of the subcommittee:

    Thank you for the opportunity to provide testimony in support of 
the Library's fiscal year 2020 budget.
    Now in my third year as Librarian of Congress, I am encouraged by 
the advancements we have made in sharing more of the Library's 
extraordinary collections and our staff's expertise and commitment to 
public service. Today, the Library holds nearly 170 million items in 
all formats and languages and has the world's largest collections of 
legal materials, films, and sound recordings. Last year, the Library 
welcomed nearly 1.9 million in-person visitors. The Congressional 
Research Service (CRS) provided custom services to nearly 100 percent 
of Senate and House member offices and standing committees. More than 
450 thousand claims were registered by the U.S. Copyright Office. 
Nearly 10 million preservation actions were performed on the physical 
collections; over 20.9 million copies of braille and recorded books and 
magazines were circulated to more than 470,000 blind and physically 
handicapped accounts; and the Library responded to over 1 million 
reference requests from the Congress, the public, and other Federal 
agencies. The Library's web sites, including loc.gov, congress.gov, 
copyright.gov, and the CRS site, among others, received 110 million 
visitors and 503.1 million page views.
    Over the past year, we have moved forward in significant ways to 
increase access to the Congress's library. We created a Digital 
Strategy Office within the Office of the Chief Information Officer to 
partner with service units to incubate innovative digital projects. The 
new office has already launched a successful crowdsourcing project, 
``By the People,'' which allows public contributions to and 
interactions with the digital collections in new ways while at the same 
time helping the Library make data more discoverable. A new, state-of-
the-art case was installed to conserve and securely display the 
treasured Gutenberg Bible. We launched crsreports.congress.gov to 
provide the public with access to non-confidential research products 
produced by CRS for the Congress. The Law Library digitized 23,522 
pages of National Transportation Safety Board case findings to be 
available in fiscal year 2019. New collections have been made available 
online, among them the papers of President Theodore Roosevelt and 
Benjamin Franklin.
    I would like to express my sincere gratitude for the outstanding 
support that this committee and the entire Congress gives to the 
Library. In particular, I appreciate the support you have provided us 
for our fiscal year 2019 requests to meet high-priority needs such as 
strengthening CRS staffing in high demand areas, restoration of the 
Copyright examiner workforce, support for the increased hosting costs 
of the Legislative Branch Financial Management System, librarians and 
archivists to address the backlog in processing the special 
collections, and much more.
    Your strong support for staffing resources allows us to better 
handle critical work and to begin replacing specialized staff expertise 
that was developed over many years and lost--principally to 
retirement--and not replaced due to budget limitations. I also thank 
you for your continued extraordinary support for the Library's 
collection storage modules program at Ft. Meade as part of the 
Architect of the Capitol's budget.
    I come before you today to discuss the Library's funding request 
for fiscal year 2020 which continues and expands necessary 
modernization initiatives to include optimization efforts.
    In October, we launched the Fiscal Year 2019-2023 Strategic Plan 
with four strategic goals: Expand access, expand services, optimize 
resources, and measure impact. Our direction forward calls for a 
decisive shift to become more user centered, digitally enabled, and 
data driven. The first Digital Strategy, which complements the Fiscal 
Year 2019-2023 Strategic Plan, was recently released to provide a bold 
vision to guide the Library's digital transformation over the next 5 
years.
    We completed organizational changes that streamline functions and 
support the user centered direction. The former National and 
International Outreach service unit was reconstituted as two units, the 
Center for Learning, Literacy and Engagement and the Center for 
Exhibits and Interpretation, both with dynamic new directors. Whereas 
National and International Outreach was itself a service unit, the 
centers are located organizationally under the Office of the Librarian 
so that they are able to pull resources together from across the 
Library. The largest part of the Library was also realigned to become 
the Library Collections and Services Group, which now includes the Law 
Library, Library Services, and the National Library for the Blind and 
Physically Handicapped (NLS). All of these changes directly support 
public engagement with the Library's resources and services.
    With significant congressional support, IT centralization is in its 
final phase with staff and funding transfers from CRS, Copyright, and 
NLS to the Office of the Chief Information Officer (OCIO). The 
Copyright Office is aggressively pursuing comprehensive modernization 
of its IT systems. With a solid, stabilized IT infrastructure close to 
realization, the Library is transitioning through the data center 
initiative from its restricted legacy hosting facility on Capitol Hill 
to a hybrid hosting infrastructure with enhanced security that is 
capable of accommodating greatly increased digital engagement.
    I am confident that we have a strong organizational structure and a 
robust strategic planning process internally in place to lead the 
Library into the future. I now ask for your assistance in helping us 
take the additional steps we need with an increase in funding for 
critical initiatives.
    The Library of Congress fiscal year 2020 budget request is for 
approximately $803 million, which represents a 6.8 percent increase 
over the Library's fiscal year 2019 enacted appropriation. This request 
includes $26 million in mandatory pay and price level increases. The 
balance of the increase represents critical program investments 
necessary to fulfill the Library's role and to move forward on the 
commitment to be more user centered.
    The top two goals in the new strategic plan, expanded access and 
enhanced services, aim to make the Library's unique collections, 
experts, and services available when, where, and how users need them.
    Bringing the Nation's collections and history out of the vaults and 
into public spaces through a public/private partnership to create the 
Visitor Experience remains a key avenue to greater access for all who 
visit. Over the past year we accelerated our planning for an enhanced 
visitor experience in the Thomas Jefferson Building. As part of the 
Master Plan, the Library is developing a resource plan to serve as the 
roadmap for a private fundraising initiative. A request for the design, 
fabrication and installation of a Treasures Exhibit Gallery, a Youth 
Center and Lab spaces, and staffing for 3 years will begin to realize 
the promise of the Visitor Experience initiative, elevating it to a 
level unmatched among peer institutions in Washington, DC.
    Since my confirmation, my goal as Librarian has been to expand 
users' access to the Library both on site and online. When it comes to 
our onsite efforts, my top priority is to help visitors become lifelong 
users. In early 2018, I presented to the Congress an opportunity to 
enhance the visitor experience of the Thomas Jefferson Building.
    I appreciate that Congress committed to a public-private 
partnership to provide $60 million for this project--$40 million in 
appropriated funds to be matched by $20 million in private funds raised 
by the Library. The Library of Congress Madison Council Chairman has 
offered to lead private fundraising for the Visitor Experience. The 
Library has received $11 million in verbal commitments and is working 
with a contractor to develop a capital campaign to raise the rest. I am 
grateful as well for congressional approval of $10 million in fiscal 
year 2018, $2 million of which was to be used immediately to contract 
with a professional firm to create a Master Plan from the design 
concepts shared with the Congress.
    We recently provided Congress a first ``look in'' to the Master 
Plan, which confirms that the Library can accomplish broadly within the 
$60 million budget what we envisioned during the design concept phase 
last year. We anticipate revitalizing exhibit spaces, creating an 
activities area for youth, and having a welcoming orientation space 
where constituents and visitors will see Jefferson's Library as the 
foundation of the Library, and look up through an oculus to the 
magnificent Main Reading Room.
    The majority of changes entail movement and deconstruction of 25-
year-old exhibit cases and related materials and installation of new 
state of the art, secure and climate-controlled glass and steel exhibit 
cases. We have confirmed that building modifications for the oculus 
constitute light construction. We appreciate that from the inception of 
the project, both the Architect of the Capitol and U.S. Capitol Police 
have provided advice, feedback, and recommendations as we contemplated 
options with our professional design firm.
    As this is your Library, we want your constituents and visitors to 
have a better experience. With so many visiting school groups, we want 
them to leave more knowledgeable about the history of our country, have 
a better understanding of democracy in action, appreciate what it means 
to be a good citizen, and know the origins of the Library which is also 
the Congress' story. We also want visitors to leave motivated to learn 
more about our country and its cultural patrimony. I look forward to 
continuing to keep you informed about our progress on this project to 
showcase the unparalleled nature of the Library's collection.
    We are also seeking to enhance user access online through funding 
for congress.gov, the official web site for legislative data, to 
support high-priority, congressionally requested enhancements such as a 
mobile app, continuous development of the system, and the full 
retirement of the legacy Legislative Information System. Funding to 
support modernization of the NLS braille and talking books programs 
through digital delivery to braille eReaders, and by creating a cloud-
based, scalable infrastructure for Internet delivery of talking and 
braille books, will position NLS to serve a far larger patron base.
    The Library's third strategic goal, optimize resources, expands 
modernization to encompass strengthening of our internal capacity and 
infrastructure in several critical areas. Our request to optimize the 
policies, processes, tools, and staff capacity and capability of the 
Financial Services Directorate (FSD) is vital to the Library. FSD needs 
a modernized skill base in data analytics, internal controls, budget, 
policy, and financial reporting to meet financial management methods 
and requirements that are continually evolving, integrating, and 
expanding. Because FSD's non-pay resources support the highly visible, 
mission-critical Legislative Branch Financial Management System, FSD 
has been challenged to fund needed improvements and acquire a new set 
of capabilities for the future as systems are modernized, processes are 
further automated, and the work shifts from transactional to 
analytical. FSD must also reconstitute the corporate knowledge that has 
been or shortly will be lost to retirement.
    Information technology optimization requests continue the network 
modernization begun in fiscal year 2018 by supporting operation and 
sustainment activities including hybrid hosting, a robust user wireless 
network, a staff wireless capability to the Library's campus network 
leveraging state-of-the-industry infrastructure to facilitate improved 
collaboration, and an enhanced metropolitan area network and wide area 
network capabilities. The request also provides the Library with a more 
secure operating environment using the Zero Trust Security model and 
establishes a Virtual Network Operations Center that will allow 24/7/
365 monitoring. Optimization is also necessary to automate and 
streamline the manual process the Library currently uses to perform 
personnel security functions, and to implement Enterprise Customer 
Relationship Management (CRM), an approach to managing an 
organization's interaction with current and future customers with a 
focus on improving business relationships.
    Our fourth and final strategic goal, measure impact, uses data to 
measure the Library's impact on the world around us and share a 
powerful story. Our request establishes a robust data and analytics 
capability, through a centralized data analytics group, with processes, 
methodologies, and subject matter expertise needed to consistently and 
strategically identify, capture, analyze, and make decisions on data 
from its users' needs and quality of experiences, in alignment with the 
Library's new strategic plan.
    In closing, modernization and optimization--not only of IT systems, 
but of the experience visitors have when they come to the Library, the 
competencies needed in a modernized, more automated environment, 
braille and talking book delivery mechanisms, and capacity in data and 
analytics--are critical to moving the Library forward into the future. 
The fiscal year 2020 budget request furthers the modernization efforts 
of recent budget requests and targets critical workforce needs.
    Madam Chairman, Ranking Member Murphy, and Members of the 
subcommittee, the Library is the embodiment of the American ideal of a 
knowledge-based democracy. I thank you again for supporting the Library 
of Congress and for your consideration of our fiscal year 2020 request.
                                 ______
                                 
Prepared Statement of Karyn A. Temple, Acting United States Register of 
                               Copyrights
Madam Chairman, Ranking Member Murphy, and Members of the subcommittee,

    Thank you for the opportunity to submit the United States Copyright 
Office's fiscal year 2020 budget request.
    As the Supreme Court has recognized, copyright is the very ``engine 
of free expression.'' \1\ The U.S. copyright framework provides a 
balanced set of protections and exceptions to facilitate the country's 
economic and cultural growth, resulting in an extremely diverse 
cultural heritage and flourishing creative and technology sectors for 
the benefit of the American people. In 2017, the core copyright 
industries added more than $1.3 trillion to the U.S. GDP, accounted for 
6.85 percent of the U.S. economy, and employed 3.85 percent of the U.S. 
workforce.\2\ These impressive contributions are made by individual 
creators and businesses working in a wide variety of fields, including 
software, movies, music, books and journals, visual arts, and more.
---------------------------------------------------------------------------
    \1\ Harper & Row Publishers, Inc. v. Nation Enters., 471 U.S. 539, 
558 (1985).
    \2\ International Intellectual Property Alliance, Copyright 
Industries in the U.S. Economy: the 2018 Report at 3 (2018).
---------------------------------------------------------------------------
    The Copyright Office plays a critical role in this ecosystem. The 
Office is the only Federal entity charged by statute with administering 
the Nation's copyright laws. The Office also promotes creativity and 
free expression by offering educational and outreach programs on 
copyright as well as impartial, expert advice on copyright law and 
policy, for the benefit of all. A key component of the Office's work is 
to examine claims for copyright to determine whether to register them, 
and to record changes in ownership in those claims. In fiscal year 
2018, the Office received more than 540,000 new claims for copyright, 
registered 560,000 claims covering millions of works, and recorded over 
21,000 documents regarding copyright ownership. This represents a 
tremendous public record of the Nation's creativity that enables 
copyright owners to pursue claims in court and provides the public with 
new access to ownership information.
    Registration and recordation are, however, just two of the 
Copyright Office's important duties. The Office also has a central role 
in administering statutory licenses to use certain copyrighted works, 
managing over a billion dollars in royalties in fiscal year 2018 alone. 
The Office provides key support to the public on copyright issues, 
handling almost 200,000 public inquiries by phone, email, and in 
person. And the Office continues to handle the Copyright Act's 
mandatory deposit requirement that provides the Library of Congress 
with an impressive number of published works for its collection, which 
in fiscal year 2018 included more than 735,000 published works worth 
over $47.5 million.
    The Copyright Office also serves as a primary advisor to Congress, 
with a longstanding history of providing expert analysis on all 
copyright policy matters since its creation.\3\ In 2018, the Copyright 
Office continued this work by providing extensive assistance on 
copyright legislation, including the landmark Orrin G. Hatch-Bob 
Goodlatte Music Modernization Act (``MMA'') and the Marrakesh Treaty 
Implementation Act. The Office's important work on the Music 
Modernization Act was lauded by Congress, which emphasized that the 
Office ``has the knowledge and expertise regarding music licensing 
through its past rulemakings and recent assistance to the Committee 
during the drafting of this legislation'' \4\ to lead the historic 
law's subsequent implementation. The Office also advised on a variety 
of other copyright matters, including by providing a detailed analysis 
on the legal landscape of copyright as it relates to visual artists \5\ 
and continuing policy studies on the section 512 notice-and-takedown 
regime and moral rights.
---------------------------------------------------------------------------
    \3\ See, e.g., H.R. Rep. No. 105-796, at 77-78 (1998) (Conf. Rep.) 
(directing the Office to continue its ``longstanding role as advisor to 
Congress'' by, among other things, providing ``testimony [on] pending 
legislation,'' conducting ``studies [that] have often included specific 
policy recommendations,'' and responding to ``specific requests by 
Committees for studies and recommendations on subjects within the 
Copyright Office's area of competence'').
    \4\ H.R. Rep No. 115-651, at 14 (2018).
    \5\ See Letter from Acting Register Karyn Temple to Senate 
Judiciary Committee and House Judiciary Committee, Copyright and Visual 
Works: The Legal Landscape of Opportunities and Challenges (Jan. 18, 
2019); Senate letter available at https://www.copyright.gov/policy/
visualworks/senate-letter.pdf.
---------------------------------------------------------------------------
    The Copyright Office also is charged with a number of additional 
legal and regulatory responsibilities. For example, in 2018, the Office 
completed several rulemaking proceedings, including the seventh 
triennial section 1201 rulemaking process that provides exemptions to 
the law's prohibitions on anticircumvention of certain technological 
protection measures. The Office's section 1201 recommendations, which 
were based on the Office's updated and streamlined 1201 process, were 
widely praised in diverse areas of the copyright community. And the 
Office worked with the executive branch and the courts on a number of 
high-profile matters, including several Supreme Court litigations and 
international treaties.
    At the same time, the Copyright Office has dedicated significant 
resources and attention to modernization. Now more than ever, the 
Office recognizes the need to ensure that copyright owners and users 
have a robust, user-centered, and highly efficient system that will 
support prompt action on applications for registration and the 
development of a comprehensive record of ownership data.\6\ Based on 
2017's Modified U.S. Copyright Office Provisional IT Modernization 
Plan: Analysis of Shared Services, Support Requirements, and 
Modernization Efforts (``Modified IT Plan''),\7\ in January 2018, the 
Office created the Copyright Modernization Office (``CMO''), which is 
tasked with closely analyzing the Office's modernization needs. The 
Office also worked with the Library of Congress' Office of the Chief 
Information Office (``OCIO'') to begin the process of identifying both 
internal and external goals for a new system, and how to best move 
forward. For example, in 2018 the Office and the OCIO began joint 
design work to create public interfaces for the Office's forthcoming 
modernized applications (in conjunction with internal analysis of 
business requirements for potential substantive regulatory or practice 
changes). To help the public understand the process and planned 
timeline, the Office established a dedicated webpage and initiated a 
bimonthly webinar series to inform the public and highlight progress; 
staff members also conducted a number of presentations. While still at 
the beginning stages of IT modernization, the Office is excited to 
continue this essential work.
---------------------------------------------------------------------------
    \6\ See Fourth Estate Pub. Benefit Corp. v. Wall-Street.com, LLC, 
--U.S.--, 2019 WL 1005829 (2019) (confirming that copyright owners can 
only institute copyright suits after the Copyright Office has acted on 
their copyright applications).
    \7\ U.S. Copyright Office, Modified U.S. Copyright Office 
Provisional IT Modernization Plan: Analysis of Shared Services, Support 
Requirements, and Modernization Efforts (2017), available at https://
www.copyright.gov/reports/itplan/modified-modernization-plan.pdf.
---------------------------------------------------------------------------
    The Office's focus on modernization, however, does not encompass 
only information technology. Over the past year, the Office began 
several important initiatives to modernize its work flow and processes, 
and to continue to reduce processing times. The Office conducted a 
comprehensive review of older applications (those pending more than 1 
year) to determine the basis for the processing delay and to follow up 
with applicants if the Office still required further information to 
determine whether to register a work. To date, the Office has reduced 
the number of these claims by 74 percent.
    Additionally, the Office has explored a number of other ways to 
improve efficiency and processing times. For example, in 2017, the 
Office assembled a working group to review pendency times that included 
representatives from throughout the Office to develop recommendations 
for improvements. In 2018, the Office also formally reevaluated its 
training program for onboarding new registration examiners to identify 
ways to more quickly complete training. This evaluation included a 
working group with a cross-section of staff from each division of the 
Registration Program who identified efficiencies to shorten the 
previous year-long training program to 6 months, enabling examiners to 
more quickly begin fully participating in the application review 
process. The Office also engaged the Smithsonian Organization and 
Audience Research (``SOAR'') to review registration workflow and 
processes and provided recommendations. At the same time, the Office 
enhanced training initiatives to address more complex issues so that 
less correspondence with applicants is required. And, in the past two 
budget cycles, the Office requested additional examiner resources (15 
examiners in fiscal year 2018 and 15 examiners in fiscal year 2019). 
These important steps have yielded a significant positive effect on the 
Office's processing times and number of pending claims. In the past 
year, the Office reduced its workable claims by 46 percent and has seen 
a sharp drop in the processing time for pending registration 
applications. The Office also continued to focus on streamlining 
registration practices to make the process more efficient, and in the 
past 2 years alone has initiated or closed 17 rulemakings to modernize 
its regulatory practices, resulting in updated regulations regarding 
filing fees, deposit requirements, and registration policies. 
Rulemakings on topics as diverse as short online literary works and 
architectural works are pending public comment.
    The Office performs all of this important work on a relatively 
modest budget. As the Supreme Court noted just this month, changes in 
funding have real-world effects on the copyright community, and 
resulting processing delays can be ``attributable, in large measure, to 
staffing and budgetary shortages that Congress can alleviate, but 
courts cannot cure.'' \8\ With the loss of certain fees resulting from 
passage of the MMA,\9\ combined with the new statutory requirement for 
the Office to provide outreach pursuant to that legislation,\10\ the 
Office must undertake greater responsibilities with fewer resources. 
The Office is reviewing its overall funding and activities to make the 
best use of its resources.
---------------------------------------------------------------------------
    \8\ Fourth Estate, --U.S. --, 2019 WL 1005829, at *7.
    \9\ The MMA eliminated the need for certain Notices of Intent for 
certain mechanical licenses under section 115 of the Copyright Act. 
This change will reduce the Office's incoming fees by a not 
insignificant amount.
    \10\ MMA, H.R. 1551, 115th Cong. tit. I, Sec. 102(e) (2018) 
(mandating that the ``Register of Copyrights shall engage in public 
outreach and educational activities'').
---------------------------------------------------------------------------
    The Copyright Office is honored to serve the country and the 
copyright ecosystem. Building on almost 150 years of experience, the 
Office is dedicated to advancing the ``engine of free expression'' and 
working with the public and other governmental actors. The Office is 
grateful for this opportunity to present a budget request that would 
enable this important work to continue in fiscal year 2020.
          funding and overall fiscal year 2020 budget request
    The Copyright Office greatly appreciates the Committee's support in 
fiscal year 2019 for its priority initiatives, which include fulfilling 
the Modified IT Plan goals, providing the public with online access to 
historical copyright records, and reducing registration and recordation 
processing times. Those initiatives are now fully underway, and the 
Office is pleased to report on a number of accomplishments as part of 
this fiscal year 2020 budget request. As the fiscal year 2019 enacted 
budgets included recurring annual funding for several of these 
initiatives, the Copyright Office fiscal year 2020 request includes 
only the mandatory pay-related and price level adjustments necessary to 
maintain the same level of funding support to continue the progress 
underway. The request also includes a funding transfer request, which 
will provide the OCIO with funding to support IT resources transferred 
from the Copyright Office to the OCIO as part of the Library's shared 
IT services initiatives.
    The Copyright Office's overall budget is composed of three separate 
budgets or program areas: (1) Basic Budget, which funds most of the 
Office's core operations, including the majority of payroll-related 
expenses. Historically the basic budget has been provided through a 
combination of appropriated dollars and authority to spend fee revenue, 
with fees constituting a majority of this funding (generally in the 
range of 50 percent to 67 percent); (2) Licensing Budget, which is 
derived completely from licensing royalty collections otherwise payable 
to copyright owners and filing fees paid by cable and satellite 
licensees pursuant to statutory licenses administered by the Office; 
and (3) Copyright Royalty Judges Budget, which funds the Copyright 
Royalty Board (``CRB'')--although the CRB is not a part of the Office, 
the Office administers its budget on behalf of the Library of Congress.
    For fiscal year 2020, the Copyright Office requests a combined 
total of $92.9 million in funding and 429 FTEs, of which $49.7 million 
would be funded through offsetting collections of fees collected in 
fiscal year 2020 and in prior years.

    The Office's fiscal year 2020 requests are:

  --Basic Budget: $85.1 million and 400 FTEs. The request includes 
        mandatory pay-related and price level increases of $2.3 
        million. The request also includes a transfer of $2.7 million 
        to fund the Library's OCIO for IT resources transferred to them 
        as part of the Library's shared services initiatives, and a 
        reduction in the amount of $0.3 million for non-recurring costs 
        associated with the Office's warehouse inventory. The fiscal 
        year 2020 budget request requests funding for its Basic Budget 
        from $43.2 million in offsetting fee collections (51 percent) 
        and $41.9 million (49 percent) in appropriated dollars.
  --Licensing Division Budget: $5.95 million and 23 FTEs, all of which 
        is funded via fees and royalties. The requested increase 
        includes mandatory pay-related and price level increases of 
        $0.2 million.
  --Copyright Royalty Judges Budget: $1.9 million and six FTEs, with 
        $0.07 million to support mandatory pay-related and price level 
        increases. $0.5 million (for non-personnel-related expenses) of 
        the total request is offset by royalties. The remainder, $1.4 
        million in appropriated dollars, is to cover the personnel-
        related expenses of the judges and their staff.
                  focus of fiscal year 2020 activities
    The Copyright Office's fiscal year 2020 funding request provides 
resources necessary to continue the progress already started towards 
the Office's strategic goals, which include: (1) modernization of the 
Office's IT systems and applications, including the Office's historical 
records initiative, and (2) modernization of the Office's business 
environment and practices so that the Office's core registration and 
recordation services are delivered as efficiently as possible.
Copyright IT Modernization
    Modernization of the Copyright Office's aging information 
technology systems and applications continues to be the Office's top 
priority. As directed by the Committee, the Copyright Office has 
engaged in extensive collaboration with the Library's OCIO ``to achieve 
efficiencies in shared services, while allowing for mission-specific 
modernization to be the responsibility of the Copyright Office.'' \11\ 
With the 5-year recurring funding provided in fiscal year 2019 through 
the support of the Committee, the Office and the Library's OCIO have 
partnered to facilitate work associated with the Office's envisioned 
Enterprise Copyright System (``ECS''), which will integrate data across 
the Office's core services for registration, recordation, and statutory 
licensing.
---------------------------------------------------------------------------
    \11\ S. Rep. No. 115-274, at 43 (2018) available at https://
www.congress.gov/115/crpt/srpt274/CRPT-115srpt274.pdf.
---------------------------------------------------------------------------
    While the Copyright Office is working to determine its needs from a 
non-technical standpoint, the Library has a centralized IT model, with 
all responsibility for technical IT and agile training services 
consolidated within the OCIO. Thus, the Copyright Office has 
transferred the bulk of the fiscal year 2019 funding to OCIO through an 
intra-agency agreement so that OCIO can continue to maintain Library-
wide responsibility for administering the activities and contracts 
associated with those services.
    The Copyright Office wants to assure the Committee that it has 
taken seriously the request to investigate innovative contracting 
methods, including possible no-cost contracting solutions for 
modernization. The Office coordinated with the OCIO, issuing a public 
Request for Information (``RFI'') in May 2018 that asked for comments 
on creative solutions, including possible no-cost options, for the 
development of a next-generation ECS. To further facilitate efforts to 
reduce risk associated with IT contracts for a project of this scope, 
the Office consulted with the General Services Administration (``GSA'') 
18F, the office within GSA that provides expertise to Federal agencies 
in planning successful IT projects. 18F provided the Office with input 
on the RFI, best practices in contracting for agile projects, and on 
the Copyright Office's preparedness for facilitating agile teaming. As 
a follow-on to the RFI and the 18F engagement, the Office and the OCIO 
are currently working with GSA to leverage their IT contracting experts 
for future modernization contracting activities, and plan to have GSA 
coordinate new public requests for proposals for the development of the 
ECS.
    Against this backdrop, and with the Committee's support, the Office 
has made important progress on modernization activities. Following is a 
summary of successes already achieved and progress underway:
Public Outreach
    The Copyright Office recognizes the interest and investment that 
the copyright community has in the success of the Office's IT 
modernization, and the Office is committed to a robust program of 
communication, outreach, and transparent reporting for the Office's 
modernization activities.
    Beginning in fiscal year 2018 and continuing into fiscal year 2019, 
the Office conducted extensive public outreach with the OCIO and a 
digital User Interface/User Experience (UI/UX) contractor to begin to 
design the public interfaces relating to recordation functions and 
registration applications within the ECS. The Office visited four 
cities (Washington, D.C., New York, Los Angeles, and Nashville), 
conducting 68 in-depth interviews with copyright registration and 
recordation applicants and other public stakeholders to gain an 
understanding of end-user needs for the registration and recordation 
systems. The Office also conducted an extensive online survey, 
receiving over 10,000 responses. Using this public feedback, the UI/UX 
contractor developed preliminary wireframes of the new systems that 
will allow the Office to conduct ongoing user testing and further 
refine the user interfaces.
    The Office established a dedicated public webpage for modernization 
efforts located at copyright.gov/copyright-modernization/. 
Modernization activities have been chronicled on the Copyright: 
Creativity at Work blog and the newly-established CMO established a 
public email address (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1677657d757b79567579666f647f717e6238717960">[email&#160;protected]</a>) for modernization 
questions. Senior Office staff also gave numerous presentations 
highlighting ongoing modernization efforts, including at annual 
meetings of the American Intellectual Property Law Association 
(``AIPLA'') and Copyright Society of the USA (``CSUSA''), and Office 
staff highlighted modernization efforts at a variety of other speaking 
engagements. In 2019, the Office is expanding its outreach efforts to 
ensure that the public is informed and engaged in these processes, 
including with the newly-launched bimonthly webinar series featuring 
highlights of modernization.
    Additionally, the Office issued a Notice of Inquiry asking for 
public input on how to improve regulations and practices related to the 
registration of copyright claims in the digital age. To develop modern 
registration policies, the Office sought input on three areas of 
reform: (1) the administration and substance of the application for 
registration, (2) the utility of the public record, and (3) the deposit 
requirements for registration. The Office received comments in January 
2019 and is reviewing them to assist in the modernization process. The 
Office is considering issuing additional requests for public input on 
targeted areas such as types of works in the coming months.
Recordation Automation
    Even before fiscal year 2019, Copyright Office staff had begun work 
to re-engineer its antiquated, paper-based document recordation system. 
Development is now underway on a new automated recordation system that 
will completely overhaul the current time-consuming, manual recordation 
of documents. In collaboration with the OCIO, the Office provided 
business-based objectives for an OCIO development contract to deliver a 
``minimally viable product'' (``MVP'') of the recordation application 
in advance of an official project launch. This new system will automate 
customers' document submissions (i.e., data) and create a searchable 
data set that is both available and useful to the public. A limited 
public release of an MVP for the recordation application is expected in 
February 2020, which will allow the Office to gather feedback for 
continued development efforts. Product Launch is currently scheduled 
for the following year, in February 2021.
Historical Records Initiative
    The historical records initiative is an IT modernization effort 
that was separately funded with 5-year recurring authority. The goal of 
the historical records project is to take all of the Office's 
historical records of copyright and make them digitally available to 
the public. This includes all USCO public records from 1870-1977 that 
are not available online and the public records that are already 
available online (post-1977 records) but need a more robust search and 
retrieval interface. The primary digitization efforts are aligned with 
results of the Office's recently completed industry analysis, a study 
conducted to ensure that the Office's efforts are efficient and in line 
with best practices. Recent successes include the latest public release 
of a Virtual Card Catalog (``VCC'') Proof of Concept, which provides 
the public with images of all of the Office's card catalog records 
including registrations, assignments, and other historical records. As 
of March 2019, the VCC included over 41.5 million card images from 
1870-1977, which can be filtered by time period and drawer label. The 
1955-1977 indexes can be filtered by the optical character recognition 
(``OCR'') text on the cards. The public feedback has been 
overwhelmingly favorable and will be used for future historical records 
development efforts.
Data Management
    IT Modernization also encompasses data management, and the 
Copyright Office began work on its data management plan in fiscal year 
2018. The plan will serve all in the copyright community--from creators 
to users and the public at large--allowing them to reap additional 
benefits from Office data and information that will be authoritative, 
easily found, well described, high quality, secured, and managed across 
the entire enterprise. Ultimately this project will provide for a 
federated search and Business Intelligence reporting technology to 
allow users to search across registration, recordation, and licensing 
databases, and to facilitate improved chain-of-title sequencing that 
can connect registrations to records of assignments and transfers or 
other documents.
Modernization of Copyright Office Business Practices
    With the funds provided for additional registration specialists in 
fiscal years 2018 and 2019, the Office has been able to clear a 
significant number of pending registration applications. As noted 
above, the Office also undertook a number initiatives to analyze and 
address processing times. In fiscal year 2018, the volume of workable 
claims, i.e., claims not requiring applicant action or awaiting the 
associated copyright deposit, were reduced by almost 1,900 claims per 
week compared to reductions of only 130 claims per week in fiscal year 
2017. The Office is continuing to focus on process improvements by 
including modernization of copyright regulations and practices in the 
Office's ongoing business process reengineering analysis.
    The Office's modernization initiative is about more than just 
technology--it also encompasses Office business process reengineering, 
an organizational and workload assessment, and personnel planning. For 
instance, in fiscal year 2018 the Office engaged the Office of 
Personnel Management's Human Resources Solutions (``OPM'') to conduct 
an organization analysis and redesign to achieve optimal position 
management and service delivery efficiency. OPM's work will be 
completed in early fiscal year 2020, and the Office intends to use the 
resulting analysis to reorganize the Office to better align with newly 
automated processes resulting from modernization.
MMA Implementation
    In October 2018, Congress enacted the most comprehensive update to 
copyright law since the 1998 Digital Millennium Copyright Act. Title I 
of the MMA amends the section 115 license for reproduction and 
distribution of musical works. Title II brings pre-1972 sound 
recordings partially under the Federal copyright statute. Title III 
addresses directing royalties to sound recording producers and 
engineers. The MMA also requires the Office to conduct multiple 
rulemakings to implement aspects of the law, engage in outreach and 
educational activities regarding changes to the section 115 license, 
and undertake a policy study with respect to the establishment of a 
public database regarding the section 115 license. The Office has been 
continuously updating its website to inform the public of the MMA, and 
relevant implementation dates. The Office has begun publishing updates 
to its circulars with the statutory changes as well as layman's 
explanations of the law and its administration.
    Days after the MMA was enacted, the Office issued interim rules to 
implement aspects of the MMA, addressing Title I (regarding the 115 
license) and Title II (regarding Pre-1972 sound recordings). The Office 
issued a Notice of Inquiry and Notice of Proposed Rulemaking addressing 
additional regulatory updates (noncommercial use). The public comment 
period for the Notice of Proposed Rulemaking closed on March 7, 2019. 
There is a statutory deadline of April 9, 2019 for publication of a 
final rule (noncommercial use).
    On December 21, 2018, the Office issued a Notice of Inquiry 
regarding the designation of a mechanical licensing collective and a 
digital licensee coordinator to carry out key functions under the 
updated mechanical licensing process. Comments were due March 21, 2019, 
with reply comments due April 22, 2019. The Office is committed to an 
open and transparent designation process. The Acting Register will 
recommend entities to be designated by July 8, 2019.
    The Office's outreach and educational activities will continue 
after each implementation step, including regarding the designation of 
the mechanical licensing collective and a digital licensee coordinator. 
The Office will also undertake a policy study regarding best practices 
that the mechanical licensing collective may implement in order to 
identify and locate musical work copyright owners with unclaimed 
accrued royalties held by the collective, encourage them to claim their 
royalties, and reduce the incidence of unclaimed royalties.
         pending changes to the copyright office fee structure
    When proposing a balance of user fees and taxpayer-funded monies to 
support its operations, the Copyright Office gives careful 
consideration not only to the public benefits of the national copyright 
system, but also to the impact of user fees on a copyright system that 
is dependent on voluntary copyright registration and recordation. To 
ensure that the Office's fees are ``fair and equitable and give due 
consideration to the objectives of the copyright system,'' \12\ the 
Office conducts regular studies of its operating costs and fee 
structure. For the most recent study, completed in fiscal year 2018, 
the Office engaged an outside consulting firm to comprehensively assess 
the internal drivers of the Office's costs as well as external factors, 
such as an assessment of economic trends that affect stakeholder value, 
statutory restrictions, and policy goals. The Office released the study 
in May 2018, along with a Notice of Proposed Rulemaking, giving public 
notice of the Office's proposed fee schedule changes.
---------------------------------------------------------------------------
    \12\ 17 U.S.C. Sec. 708(b)(4).
---------------------------------------------------------------------------
    The Copyright Office received a significant number of public 
comments regarding the Notice, and is currently reviewing those 
comments in anticipation of finalizing a new fee structure in fiscal 
year 2019.
                      more flexible fee authority
    The Copyright Office would also benefit significantly from greater 
flexibility in the use of prior-year unobligated fee balances. This 
could allow the Office to provide services to the public in the event 
of a lapse in appropriations. Flexibility in management of prior-year 
balances across budget cycles also could provide for more efficient and 
cost-effective administration of large, non-recurring projects related 
to modernization and other capital expenditures. To that end, once 
authorized, the Office anticipates including in a future budget request 
a change in appropriations language to allow for 20 percent of the 
balance available in prior-year fees to be available each year, in 
addition to appropriated amounts, for obligation without fiscal year 
limitation, and to allow the Office to access prior-year balances to 
continue operations during a lapse in appropriations.
    The Copyright Office appreciates the Committee's continued support 
of the Copyright Office's efforts to modernize both its technology and 
services, and to the operation of the copyright system overall.
                                 ______
                                 
Prepared Statement of Mary B. Mazanec, Director, Congressional Research 
                                Service
Madam Chairman, Ranking Member Murphy, and Members of the subcommittee,

    Thank you for the opportunity to present the fiscal year 2020 
budget request for the Congressional Research Service (CRS). I would 
also like to thank the Committee for your support of our fiscal year 
2019 request. The additional funds you generously provided have enabled 
CRS to strengthen the research and analytical capacity, which is so 
critical to our ability to provide Congress with exceptional service. I 
am pleased to report that we continue to make progress in our efforts 
to modernize CRS's IT systems and are ahead of schedule with respect to 
the public release of non-confidential written products via 
Congress.gov. In addition to outlining CRS's budget requirements for 
the coming year, my goal with today's testimony is to highlight some of 
the more noteworthy support the Service has provided to Congress during 
a very busy legislative session and to bring you up-to-date with 
respect to a number of important initiatives that we have undertaken 
over the past fiscal year.
                          service to congress
    Serving Congress is central to the Library's mission and CRS plays 
a critical role in this effort. CRS is proud to serve as Congress's 
research and analytical arm and embraces its mission: to provide 
Congress ``the highest quality of research, analysis, information, and 
confidential consultation, to support the exercise of its legislative, 
representational, and oversight duties.'' The Service provides 
expertise in every area of interest to Congress: American law; domestic 
policy; foreign affairs; government; and science, technology and 
industry.
    In fiscal year 2018, CRS supported Members, committees, and staff 
in fulfillment of their important responsibilities with a broad range 
of timely assistance. CRS experts provided more than 62,000 custom 
products and services, including confidential memoranda; in-person, 
telephone, and email consultation; congressional testimony; background 
products; and other miscellaneous services. The Service produced and 
maintained approximately 9,000 general distribution products and hosted 
more than 8,600 congressional participants at its seminars, institutes, 
and training programs. Between its customized product and service 
offerings, general distribution products, seminars and 24/7 online 
presence, CRS continues to interact, in some way, with virtually all 
Member and committee offices.
    CRS supported the Senate's consideration of executive and judicial 
branch nominations with in-depth research and analysis of relevant 
issues as well as advice and consultation regarding the nomination 
process. In addition, CRS experts provided extensive research and 
analytical support to multiple committees on work that culminated in 
the passage of bipartisan legislation (the SUPPORT Act) to combat the 
Nation's opioid epidemic. The Service worked closely with lawmakers as 
they considered legislation to reauthorize the farm bill, the Higher 
Education Act, the Pandemic and All-Hazards Preparedness 
Reauthorization Act, and the Federal Aviation Administration 
Reauthorization Act.
    The Service provided analysis in foreign affairs matters, such as 
Russia and sanctions policy, North Korea, nuclear and ballistic missile 
threats, the Iran nuclear agreement, and the U.S. decision to withdraw 
from it, and a long list of other critical issues. Experts also 
provided guidance on the legislative process, administrative 
rulemaking, and the annual appropriations bills. In addition, CRS 
offered a robust roster of training for congressional staff including a 
public policy series; a series on the legislative process; the popular 
Federal Law Update series, which has been offered for more than three 
decades; and a series on disruptive technologies.
                         strategic initiatives
    CRS continuously examines its organizational enterprise to ensure 
it is properly aligned to meet Congress's needs. In fiscal year 2018, 
the Service engaged in strategic and directional planning in 
coordination with the Library. The CRS directional plan was informed by 
insightful feedback from congressional users of the Service. In 
addition, input for the directional plan was solicited from both 
managers and staff in a variety of venues including: senior management 
and first-line supervisor meetings, working groups, brown bag lunch 
dialogues, all-staff meetings, and focus group sessions. The resulting 
directional plan supports the implementation of the goals and 
objectives identified in the Library's strategic plan for 2019-2023. 
The following initiatives illustrate some of the strategic efforts of 
the Service in 2018:

    Public Release of CRS Products: Notably this past year, the 
Consolidated Appropriations Act, 2018 directed the Librarian of 
Congress, in consultation with the CRS Director, to establish and 
maintain a public website containing CRS reports. At our last hearing, 
I reported that CRS started work right away to implement the directive. 
This early planning enabled the Library to meet the statutory deadline, 
on Sept. 18, 2018, and launch the public website with over 600 reports, 
which are now accessible to the public at crsreports.congress.gov. 
Today, more than 2600 reports are available on the public site, a 
number that grows steadily as more products are added. In addition to 
the ``R-series'' reports, CRS recently began posting additional product 
types to Congress.gov.

    Integrated Research Information System (IRIS): With the initial 
year of funding provided in the Consolidated Appropriations Act, 2018, 
CRS, in collaboration with the Office of the Chief Information Officer 
(OCIO), made progress in the effort to modernize its information 
technology systems. IRIS will provide an environment that will support 
CRS's work for Congress in four key areas: information research, policy 
and data analysis, content creation, and product delivery. The new 
system will improve efficiency and foster innovation in CRS operations, 
while continuing to protect the security and confidentiality of 
congressional data. CRS continues to engage stakeholders through an 
iterative series of development and implementation phases.

    Knowledge Management: CRS embarked on a knowledge management 
initiative in fiscal year 2018. Activities included the development of 
the CRS Research Portal, which consolidated research materials and 
documented best practices used by analysts to respond to selected 
policy issues. By the end of fiscal year 2018, 18 research sites 
containing approximately 20,000 documents were added to the portal. 
Other activities included digitization of critical or one-of-a-kind 
materials.

    The Service also continued initiatives in the areas of human 
resources management, policies and guidelines, and communications. 
These efforts have continued in fiscal year 2019.
             fiscal year 2020 budget request and priorities
    The CRS budget request for fiscal year 2020 is 121.57 million 
dollars, a decrease of 4.1 million dollars (or -3.3 percent) from the 
amount budgeted for fiscal year 2019. Almost 85 percent of the 
requested amount would be dedicated to staff pay and benefits. The 
requested decrease takes into account a proposed transfer of 8.76 
million dollars of appropriated funds from CRS to OCIO to centralize IT 
operations and personnel within the Library. CRS is requesting no 
additional funding beyond that which is necessary to cover mandatory 
pay and price level cost increases.
    CRS's priority is to provide objective, nonpartisan, authoritative 
information and analysis that effectively meets the needs of Congress. 
As those needs evolve over time, CRS must necessarily adjust the way it 
executes its mission to ensure continued superior service. Rapid 
advances in digital technology, coupled with an increasingly diverse 
and tech-savvy Congress require CRS to adapt its products, services, 
and operational capabilities to meet the demand for more enhanced and 
accessible offerings.
    Looking forward to fiscal year 2020 and beyond, CRS will continue 
to focus on its goals and priority initiatives to enhance and expand 
the accessibility of its products and services, and to optimize the use 
of the Service's resources. CRS will meet the next milestones in 
modernizing its IT infrastructure as it enters the operational phase of 
an upgraded content management system and launches new authoring and 
publishing tools and processes as part of the IRIS project. Continued 
progress on this initiative will enable CRS to better meet Congress' 
expectations for exceptional products and services.
    Additionally, CRS will continue to strengthen its research and 
analytical capabilities to ensure that it is best positioned to provide 
the requisite mix of skills and expertise across the breadth of public 
policy areas that Congress will confront in the coming years. With 
Congress's generous support for this effort in the fiscal year 2019 
budget, CRS has successfully addressed coverage gaps in a number of the 
policy areas targeted in its fiscal year 2019 request. In fiscal year 
2020, the Service will continue to bolster its workforce with 
recruitment of additional expertise and identify areas of potential 
need as part of its ongoing assessment of resources in light of the 
changing congressional agenda.
                               conclusion
    CRS appreciates its role as Congress's trusted resource and is 
committed to providing exceptional research, analysis, and information 
to meet the needs of every Member and committee. On behalf of my 
colleagues at CRS, I would like to express my appreciation to the 
Committee for its continued support. As we begin this 116th Congress, 
CRS looks forward to the Committee's input as we seek to improve 
products and services and strengthen operational capabilities in our 
ongoing effort to be Congress's foremost resource for public policy 
research and analysis.

    Senator Hyde-Smith. Thank you so much, Dr. Hayden.
    And congratulations, Ms. Temple.
    And now, Ms. Merdon, if you want to give us your opening 
statement.
STATEMENT OF CHRISTINE MERDON, ACTING ARCHITECT OF THE 
            CAPITOL
    Ms. Merdon. Thank you, ma'am.
    Chairman Hyde-Smith, Ranking Member Murphy, and 
distinguished Members of the subcommittee, thank you for the 
invitation to present the Architect of the Capitol's fiscal 
year 2020 budget. Because March is Women's History Month, I 
feel compelled to highlight some incredible, first here in this 
room as the first woman to lead the AOC, it gives me great 
pleasure to be sitting next to the first woman to lead the 
Library of Congress, and before you, Madam Chairwoman the first 
female Senator from the great State of Mississippi.
    I also appreciate the opportunity to present my first 
budget before this subcommittee. While I am new as Acting 
Architect of the Capitol, I am not new to understanding the 
needs and responsibilities of the agency. Serving 8 years as 
chief operating officer provided the opportunity to work with 
our very talented team. We have achieved many great successes, 
including the Capitol dome restoration and significant progress 
restoring the Russell Senate Office Building, a magnificent 
historic structure.
    Our request of $832 million prioritizes people, projects, 
and preservation to ensure we continue to fulfill our mission. 
We are honored to be trusted stewards of the most iconic 
buildings in the Nation, including the Senate and House office 
buildings, Supreme Court, Library of Congress, and the Capitol. 
Millions of people visit this beacon of democracy every year.
    Nearly everything you encounter on the Capitol campus is 
preserved and maintained by the AOC, from the incredible 
architecture that inspires you, the floors you walk on, and the 
lights that brighten your way. There is also an entire world of 
unseen utility, IT, and security infrastructure that enables 
you to do the work of the Nation in safety and comfort.
    Each year we are asked to do more. Our footprint, 
responsibilities, complexity of our work, and security 
requirements are all increasing. Our people working behind the 
scenes help the agency meet the mission every day. In the past, 
AOC has prioritized Capitol budget increases to maintain and 
improve our facilities. This has come at the expense of our 
operational needs.
    To meet these growing requirements, we must have the right 
resources. We request additional staff to support our project 
and operational needs. We must have more safety managers. We 
must have more project managers. And we must have more 
contracting officers to address our growing workload. For 
example, a typical Federal contracting officer executes 100 
contract actions a year; an AOC contracting officer executes 
double that amount.
    The AOC has more than 2,000 employees, including some of 
the most talented craftsmen in the world. To attract and retain 
specialized expertise in this competitive environment, we need 
talented human resource professionals. Our team and our 
inspector general confirmed cybersecurity is a high risk for 
the agency. We hold sensitive information; we must protect it.
    However, our IT funding is one of the lowest in the Federal 
Government, 3 percent of our budget compared to the Federal 
average of 11 percent. We've had many project successes over 
the last year, including the Cogeneration Project. It now 
yields significant energy savings, but we still have a long 
list of critical projects to complete. The Capitol Power Plant 
generates steam and chilled water throughout the campus through 
miles of tunnels. We must keep this critical infrastructure 
safe and reliable.
    Additional exterior security screening is essential to 
close a critical gap. We must keep threats outside the 
building. We are in a race against time to maintain our 
infrastructure. Stone elements from the Capitol can crumble in 
my hand.
    Preservation is a part of our heritage. The buildings, fine 
art, botanic assets: their value is priceless. We are 
requesting over $60 million in preservation projects to ensure 
major campus landmarks are enjoyed by future generations.
    During the dome restoration, our project team used AOC's 
original archive drawings from 1855 as a resource to complete 
the project. We have requested preservation resources to 
continue our work.
    So in recent years, our budget prioritized buildings over 
people. You will see in this year's budget we have increased 
our prioritization of our professionals. We know we must invest 
in the people we need to carry out our project and preservation 
mission. With your help, we will continue to be successful 
stewards of our nation's living history.
    [The statement follows:]
               Prepared Statement of Christine A. Merdon
    Chairwoman Hyde Smith, Ranking Member Murphy and Members of the 
subcommittee, I appreciate the opportunity to present the Architect of 
the Capitol's (AOC) fiscal year 2020 budget. Our request of $832 
million will allow the agency to successfully meet our mission with a 
proactive focus on people, projects and preservation.
    Prior to becoming Acting Architect of the Capitol, I spent 8 years 
as the Deputy Architect of the Capitol and the Chief Operating Officer. 
I learned much about the agency, Congress and the needs of the Capitol 
campus in that role. And I am energized by the people who work here. 
The AOC's small but nimble group of employees is not always recognized, 
but their work matters greatly, and they have a passion and desire to 
do the best job possible to serve Congress and the Supreme Court, 
preserve America's Capitol, and inspire memorable visitor experiences.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              U.S. Capitol Dome and the Statue of Freedom

    The AOC is the steward of the U.S. Capitol, Library of Congress 
buildings, U.S. Supreme Court, U.S. Botanic Garden and surrounding 
office buildings, grounds and other facilities. I am proud of what we 
have accomplished this year. Nearly one-half of the campus' buildings 
are undergoing stone restoration as weather, age and environmental 
conditions are destroying many of the finer details of our monumental 
buildings. The Capitol Power Plant's cogeneration system began 
generating electricity and steam, which will be the biggest single 
contributor to the AOC's energy reduction in the coming years. We 
completed the first phases of the Cannon Renewal and the House Child 
Care Center expansion projects. The Capitol Visitor Center welcomed its 
21 millionth visitor, and the U.S. Botanic Garden engaged nearly a 
million visitors with innovative educational programs and seasonal 
exhibits. We also collaborated with partners to provide extraordinary 
support for special events on the Capitol campus, including the Lying 
in Honor ceremony for the Reverend Billy Graham, the Lying in State 
ceremonies for Senator John McCain and President George H.W. Bush, and 
the celebration of the 225th anniversary of the laying of the Capitol 
cornerstone.
    Despite these successful initiatives, we continue to face great 
challenges. The AOC is working hard to keep pace with our continually 
expanding footprint and increased responsibilities. We must ratchet up 
our efforts to attract and retain talented employees who are engaged 
and passionate about their work; support projects that are forward-
focused and incorporate a broad view of the structure and growing needs 
of the Capitol campus; and position the agency as the authority on 
historic preservation to ensure that future generations can continue to 
take pride in the facilities and art under our care. I think of these 
challenges as the three Ps: people, projects and preservation.
                                 people
    The AOC has some of the most talented and widely admired craftsmen, 
tradesmen, artists, architects, engineers and scholars. Over the years, 
our agency has earned a well-deserved reputation as an agency with a 
``can-do'' attitude. We have taken on new responsibilities and are 
committed to meeting ever-increasing workloads. However, there are 
areas that we need to improve. The most significant of these is 
attracting and retaining talented employees.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 AOC Employees are Highly Skilled, Well-Trained and Extremely Dedicated

    Much of our work is very specific and highly specialized. Surveys 
indicate that for the skilled trades--welders, electricians, machinists 
and others that are prevalent in construction and facilities 
management--the shrinking talent pool is likely to become more acute. 
Recruiting and retaining skilled professionals is increasingly 
competitive.
    Since fiscal year 2015, the AOC has strategically prioritized 
requested budgetary increases for our capital program at the expense of 
our operational needs. Congress supported our plan and provided 
significant increases in our capital program that have and will 
continue to address many critical repairs to our facilities and 
building systems across campus. In order to maximize the impact of 
these increases, our fiscal year 2020 budget requests a 9.2 percent 
increase to begin recruiting necessary personnel and updating critical 
support systems.
    With the expansion of new responsibilities and the ongoing and 
planned construction of new facilities both on and off campus, 
additional in-house resources are needed to lead and manage increasing 
campus-wide project design and development, construction oversight, and 
project management requirements. Personnel are required to reduce 
contract award and administrative lead times, and to avoid project 
delays and cost overruns. As our campus ages and our systems are 
updated, we need better support for emergency response, fire safety 
inspection efforts and oversight of fire and safety operations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Resources are Needed to Keep Pace With Growing Operational and Project 
                          Support Requirements

    The AOC must also update and improve several critical information 
technology systems which we have identified as an agency enterprise 
risk. Our network is supported by decades-old infrastructure and end-
of-life equipment that must be modernized. We are requesting increased 
funding to protect our critical infrastructure and meet the Legislative 
Branch Cybersecurity Working Group initiative to harden networks and 
defend legislative branch systems against malicious cyber activity.
                                projects
    The AOC has a unique and important role. We have a responsibility 
to develop a vision for the future of the Capitol campus that will 
serve Capitol Hill and the American people well into the future. The 
decisions that we make about projects and priorities are important to 
preserve this beacon of American democracy for many generations.
    Adhering to a plan is important to me. Each year we use a risk-
based process to prioritize needed projects. In fiscal year 2020, we 
are requesting $175 million for projects that will provide necessary 
maintenance to our energy delivery infrastructure, facilitate the next 
presidential inauguration as well as enhance security measures around 
the campus.
    Current projects across the campus include campus-wide stone and 
metal rehabilitation, garage and landscape restorations, House and 
Senate office building renewals, upgrades to security, fire and life 
safety systems, improvements to visitor services, and energy resilience 
and sustainability initiatives. Within our fiscal year 2020 Line Item 
Construction Program (LICP) request, approximately $58.2 million (25 
percent) will be used to complete the next phases of several critical 
infrastructure projects. Projects that were requested in fiscal year 
2019 but did not secure funding represent an additional $25.3 million 
(11 percent).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   The AOC's Risk-Based Project Prioritization Process Strategically 
                          Identifies Projects

    All of our current and planned work comes with potential impacts to 
daily operations, and I am cognizant of potential construction 
fatigue--within the AOC, among members of Congress and their staffs, as 
well as our Capitol Hill neighbors. We will continue to communicate 
consistently with our stakeholders, work hard to minimize disruptions 
to the Capitol Hill community and those who visit, and always remain 
cognizant that the business of the Nation is taking place here.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   Critical Infrastructure Systems are in Need of Modernizations and 
                       Replacement Across Campus

    The AOC's fiscal year 2020 request continues to focus on space and 
storage needs to be able to accommodate the growth of the AOC, 
congressional staff, Library of Congress collections and Supreme Court 
personnel. Security requirements and their ever-evolving needs and 
responsibilities also remain a priority.
                              preservation
    Our heritage assets include buildings, monuments, landscapes, 
fountains, fine art, archival records and botanic assets. Their value 
is priceless. Over the last several years, we have expanded our 
foundational preservation documents, including building preservation 
guides and cultural landscape reports. We use these documents and our 
historic preservation policy as planning tools for restoring, renewing 
and reclaiming our heritage assets to a standard that is appropriate 
for the Nation's capital and the worldwide symbol of American 
democracy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                Conservation Work on the Rotunda Frieze

    The Architect of the Capitol is one of the few organizations where 
staff architects and engineers work directly with highly skilled, in-
house preservation artisans daily. The buildings on Capitol Hill were 
carefully and purposefully designed and constructed, and this tradition 
continues.
    Much like an ounce of prevention being worth a pound of cure, 
adherence to conservation principles and regular maintenance will 
ensure we are successful in preserving our national treasures for years 
to come. To that end, our fiscal year 2020 budget request includes more 
than $60 million in projects that will continue to preserve the U.S. 
Capitol's exterior facade for future generations and ensure the 
historic architectural features of the Library of Congress buildings 
and major campus landmarks retain their original beauty.
    Over the past couple of years, the agency has worked hard to tackle 
aspirational plans and identify campus-wide solutions that help us to 
stitch the Capitol campus into a true campus environment. When I think 
of the things that I want the agency to accomplish under my leadership, 
I know that it will only be possible by focusing on the people, 
projects and historic preservation needed to uphold the unified and 
symbolic vision for the Capitol campus inherited from the Nation's 
founders.
    Thank you for your continued support and consideration of our 
fiscal year 2020 budget request.

                    VISITOR EXPERIENCE--MASTER PLAN

    Senator Hyde-Smith. Thank you very much, Ms. Merdon.
    I'm going to start off with my questions first. Dr. Hayden, 
I understand that the Master Plan for the Library's visitor 
experience is moving along very well and with completion 
planned for this June, I believe.
    Dr. Hayden. Yes.
    Senator Hyde-Smith. The initial design elements of the plan 
are impressive and seem to accomplish your goals of increasing 
access to the Library's many treasures. You have requested an 
additional $10 million for this project in fiscal year 2020 for 
contracts related to the Treasures Gallery and Youth Center. 
With an additional $8 million of already appropriated funds 
becoming available with the approval of the Master Plan, can 
you explain the need for the additional $10 million for this 
year?
    Dr. Hayden. Yes. And I'd like to also express appreciation 
for the AOC and their cooperation and partnership throughout 
the process. They were part from the very beginning in terms of 
the plan and also in terms of contracting the company that is 
in partnership with us with developing the plan. And so I 
wanted to start with that.
    The Master Plan that is due to Congress in June was 
developed with input from Members of Congress and staff, 
research briefs, traffic flow analysis, benchmarking, and upon 
the approval of the plan, the $2 million for the Master Plan 
will also include a resource plan for private fundraising 
because that was part of the initial concept and what we are 
looking forward to.
    The request for $10 million in 2020 will build upon the 
design work from the $8 million specified for use in fiscal 
year 2019 to start the contracting and design for the Treasures 
Gallery specifically and the Youth Center. So those are the two 
aspects that would be first. And then in the following years 
the funding also would be used for executing and design and 
implementation of the rest of the project, which would include 
the Orientation Center.
    Senator Hyde-Smith. Okay. We mentioned the renderings at 
one point earlier of the new spaces.
    Dr. Hayden. Yes, we've brought them along.
    Senator Hyde-Smith. Yes, they're quite impressive. Do you 
believe that the estimated cost of $60 million is still 
accurate to implement those elements?
    Dr. Hayden. And, in fact, we've been working with AOC on 
that, and there will be additional costing estimates, but we 
are confident that with the public-private partnership that we 
will be able to accomplish what we intend with the requested 
amount.

                      VISITOR EXPERIENCE--TIMELINE

    Senator Hyde-Smith. Okay. If you were to receive all of the 
requested increase, what is your anticipated timeline for the 
completion of this phase of the visitors experience?
    Dr. Hayden. In this phase, we would be able to complete the 
Treasurers Gallery and the Youth Center between 18 to 20 
months, and the Orientation Center, which now would include 
relocating the Thomas Jefferson Library, within 24 months. So 
those are the estimates as they stand today with 
acknowledgement that there could be some changes, but not 
significant, based on the type of project that it is. It's not 
heavy construction or things like that.

                      VISITOR EXPERIENCE--IMPACTS

    Senator Hyde-Smith. What would the impact be to the current 
Library users, particularly in the Main Reading Room?
    Dr. Hayden. I just have to stop and thank Congress for 
giving us the funding for the development of an actual Master 
Plan. During this time, we've been able to take a holistic look 
of the entire Library campus and how enhancing the visitor 
experience at the Thomas Jefferson will impact the other 
buildings and that.
    Early on, when we thought about how to give people an 
inspirational view of that Main Reading Room, we had thought 
there might be an opportunity for people to actually walk into 
the Reading Room, and we quickly found that that might 
interfere with the people who are doing research in the Reading 
Room, it might not give the best experience for the visitor 
coming in looking at people. And so we went back to the design 
firm and worked on another way to give people that 
inspirational view up into the Reading Room, and that was how 
we developed the plan of having an orientation experience.
    Right now, for instance, there are four ways to get into 
the Thomas Jefferson Building on different levels, and people 
come in and they don't know where they are, they don't know 
what the Library of Congress is, they definitely don't know 
what the Library of Congress can do for them when they get back 
home. And so we were able to condense the entryway from the 
Capitol Visitor Center and a carriage-level, a ground-level, 
entryway into an orientation experience, and the rendering 
shows that you could look up into the Reading Room from that 
area and be inspired and see that space, but you would not be 
intruding and walking into the Reading Room.
    Senator Hyde-Smith. Would there be any areas that would 
have to be closed during that time?
    Dr. Hayden. That would probably be phased, and we 
definitely were trying to avoid what happened when the Library 
had an extensive restoration in the late 1990s. The Reading 
Room was closed to the public for 5 years as it was restored, 
and we definitely don't want to do that. By not having to 
intrude or intervene in most of the area, it would be a very 
limited space in the middle of the Reading Room that is now a 
rather underused desk area. So we would try to make sure that 
we would not intrude on the Reading Room, and in other spaces. 
The Treasures Gallery, that would be in an existing exhibit 
space, so there would be signage and things saying that we are 
renovating and making Treasures Gallery, we would be able to do 
that. The youth area is an area that's mainly staff area now, 
and it would have little public impact. We would be moving 
staff members into other office areas and then using that 
space.

                            IT MODERNIZATION

    Senator Hyde-Smith. Gotcha. My second question, Dr. Hayden, 
regards the Library's significant investments in recent years 
for modernization of its IT systems and infrastructure across 
the entire organization. This year, your request continues 
those investments and adds new program increases for the Data 
Center, Congress.gov, and the National Library Service's BARD 
website. As part of this effort, has the Library established a 
system to measure the successes or outcomes of its Library-wide 
IT modernization efforts each year?
    Dr. Hayden. Yes. In fact, IT modernization in the first 
phase of stabilizing our systems and even optimizing other 
systems is being completed. We are building on the successes of 
the last 2 fiscal years and the opportunity to invest quite a 
bit in IT, and we thank Congress for that. We have completed 
and implemented 27 of the 31 GAO recommendations about the 
Library's information technology infrastructure, and that 
includes security as well as preparing for the modernization of 
the copyright process and CRS and the National Library for the 
Blind and Physically Handicapped moving into the digital realm, 
delivering things through the Internet for that.
    This year we're continuing on with securing our data and 
making sure that we are able to support modernizing those other 
functions. So this modernization effort is very successful in 
terms of looking at what GAO had recommended. And we are not 
only closing them, but we are implementing those 
recommendations. We have the remaining 4 of the 31 public 
recommendations are at GAO right now waiting to be reviewed and 
passed on, and 70 of the nonpublic recommendations that 
basically address security, and that's why they are nonpublic, 
are also being addressed.

                           IT CENTRALIZATION

    Senator Hyde-Smith. And to follow up to that, your budget 
request also proposes the realignment of Library personnel 
under the IT centralization framework. To date, what benefits 
has the Library seen occur related to centralization? And what 
unforeseen challenges have occurred that you can tell us about?
    Dr. Hayden. One of the greatest benefits of centralization 
is that we have greater oversight of our IT expenditures. We 
have greater oversight over IT security systemwide. We have 
centralized our security officers into one unit and oversight 
of a professional cybersecurity person. And we are already 
seeing that our efforts to modernize other service units, 
Copyright, Congressional Research Service, are moving at a very 
good pace. And so centralization has allowed us to actually be 
able to account for our IT spending and our planning for IT.
    Mr. Barton, who I think you got a chance to meet before the 
hearing, has led that effort, and it has been monumental to see 
the progress, and we have been commended by the Government 
Accountability Office (GAO) with the progress with IT. 
Centralization was one of the first recommendations for the 
Library, to centralize all IT functions in the Library, 
including staff.

                          CONGRESS.GOV REQUEST

    Senator Hyde-Smith. Okay. Again to you, Dr. Hayden, your 
request includes $3.6 million for the full retirement of the 
Legislative Information System (LIS) and continued enhancements 
to Congress.gov. Over the years, you have made a significant 
investment of over $38 million for Congress.gov to be a 
successful platform for the public and congressional users 
alike. Can you expand on the need for this additional 
investment this year?
    Dr. Hayden. This year, we are looking at the fact that 
Congress.gov has, since fiscal 2012, been underinvested in many 
areas. As we have invested in Congress.gov, we've had to take 
appropriations from other modernization efforts. And what this 
will allow us to do is to develop new programming and 
functionality for Congress.gov and make a transition from the 
LIS system, which is a legacy system. We will not retire LIS 
until all of the functionality is in Congress.gov. And so we 
make that commitment. And so this request will really 
accelerate the enhancements to Congress.gov, such as a mobile 
app search capacity and also being able to have access to 
committee hearings and other aspects that Congress has asked 
for to make it more robust. It also will provide additional 
security for the information that's available through 
Congress.gov.
    Senator Hyde-Smith. The retirement for LIS, is that pretty 
much on track right now?
    Dr. Hayden. It's on track, however, I want to reiterate 
that we will not retire LIS entirely until we have all the 
functionality in Congress.gov. For instance, the first thing 
that you see is an initial interface that you'll see with 
Congress.gov, but what's behind it will still have LIS 
information, and that will be there. We have to make sure that 
we transfer that to Congress.gov and make sure that it is done 
securely and we have the capacity to--this is getting a little 
in the weeds, but in terms of IT, that we can't totally retire 
LIS until we make sure that everything is able to be 
transferred.
    Senator Hyde-Smith. That makes perfect sense.
    Okay, Senator Murphy, I'll turn it over to you for your 
questions.

                    VISITOR EXPERIENCE--FUNDRAISING

    Senator Murphy. Thank you very much, Madam Chair.
    Dr. Hayden, I just wanted to sort of round out the 
conversation on the Visitors Experience. Can you give us an 
update on where you are in terms of private fundraising, and 
any commitments that have been received or goals that have been 
hit on the private fundraising side?
    Dr. Hayden. On the private fundraising side, we have been 
really encouraged by the interest in, we call it patriotic 
philanthropy, opportunities that we have with this project. The 
fact that Congress has indicated their support, has given us 
entre into many opportunities for private fundraising. To date, 
we have verbal commitments for $11 million of the $20 that we 
have already indicated that we would be able to raise with the 
opportunity to have additional funding if needed; we have 
contracted with an outside contractor for a fundraising 
development plan; and we are supplementing our development 
staff with a campaign director at this time. So it's very 
heartening to see the interest in this project, and the 
opportunities are there.
    And we also see it as a way of strengthening the Library's 
fundraising and development capacity that was started by my 
predecessor, Dr. Billington, in the mid to late 1990s and early 
2000s. And so we want to rebuild that capacity and have the 
Library have a pretty robust fundraising operation.
    Senator Murphy. So just to remind me, the overall budget is 
in the neighborhood of $60 million, and the private fundraising 
goal of that----
    Dr. Hayden. Is 20.
    Senator Murphy. Is $20 million?
    Dr. Hayden. Yes, it's 20.
    Senator Murphy. And of the--if you don't want to give 
details here, that's fine--but at what point are those 
commitments unlocked? Because you're asking us for--you've got 
8, you're asking for another 10, but you've got commitments on 
the private side. At what point are they willing to actually 
put money into the project?
    Dr. Hayden. The indications that we're getting is this 
budget cycle is very important because we have followed through 
with the Master Plan and the release of the $8 million to 
start, and so the indication that there would be additional 
support on the public side would give a tangible signal to the 
development effort, and our efforts are being led by the 
chairman of our Madison Council, and so they are primed to go.
    Senator Murphy. Just speaking for myself here, I would love 
to see those private commitments become real, concurrent with 
the next round of funding because as, of course, you remember, 
the initial funding commitment from Congress was made based on 
the understanding that it was necessary in order to leverage 
some private commitments. So I'd rather have some of that money 
show up earlier rather than us continue to fund it and have 
uncertainty as to whether it comes through.
    Dr. Hayden. I think I can say here that the $11 million in 
verbal commitments could be solidified very shortly. They are 
not nebulous. That's the initial thing that could be verified 
very shortly.
    Senator Murphy. Great.
    I'll sort of go back and forth for questions.
    Ms. Merdon, when the House took over the O'Neill bill from 
General Services Administration (GSA), it funded $30 million in 
renovations to triple the capacity of its child care center, 
and I've talked about this in previous hearings, but never got 
a chance to talk to you about it in open session. Here in the 
Senate, we have 68 slots total, 9 for infants. We always talk 
about how we should run government more like a business. No 
business with the number of employees that we have here would 
have such a small child care capacity. And so in the 2019 
Legislative Branch Act, we included language directing GAO to 
work with you and other partners to study and review current 
options to expand the Senate day care. I know it's still early 
days, but could you maybe give an update on whether those 
discussions have commenced and what goals you may have for the 
outcome of those discussions?
    Ms. Merdon. Yes, we are working with GAO on the study and 
we are also working with a consultant in developing a report 
for Congress that should be ready for your review by the end of 
the Spring. Our original vendor proposals for the study came in 
much higher than expected, so we are working to refine the 
requirements and make clarifications on the scope of work prior 
to solicitation.
    As a working mother, I understand the frustrations that 
employees do have, so this is a priority for us. You know, we 
have a lot of wonderful lessons learned from the House day care 
center, and getting the right people on board to do the report 
is very important, but also making sure we do it fiscally 
responsible is very important, too.
    Senator Murphy. I'm just curious. Why do you need an 
outside entity to do a report on child care capacity?
    Ms. Merdon. Well, we learned from the House Child Care 
Center is we need specific expertise on those who design child 
centers or those who start the development of child care 
centers because there are different types of requirements--
there is the National Association for the Education of Young 
Children (NAEYC), there is GSA--and determining which one is 
the best for the Senate and having those discussions is very 
important.

                MAKING CRS REPORTS PUBLIC-STATUS UPDATE

    Senator Murphy. Great.
    Back to you, Dr. Hayden. Let's go back to the 2018 omnibus, 
which included a provision directing CRS to make its current 
and prior reports public. Can you just give us an update on how 
the rollout for the reports have gone? We have benchmarks that 
were laid out in the law. Have you been able to hit those 
benchmarks? And will you be expecting further action and 
further developments over the course of the rest of this fiscal 
year?
    Dr. Hayden. Yes. CRS has been making the benchmarks and 
almost 80 percent of the nearly 2,700 active reports are 
available right now, and the remainder will be ready and online 
by March 31, this week. And other projects and products like 
``In Focus'' and ``Insights'' will also become available in 
March. And they expect to have all of the projects available by 
September 30, and that was the target.
    Senator Murphy. Great.
    Dr. Hayden. So CRS, and working with our chief information 
officer and IT made that possible.
    Senator Murphy. Great. Two more questions for you, Ms. 
Merdon. First, on this issue over the Construction Division. So 
GAO issued a report making a recommendation about processes 
that you could formalize using sort of more current information 
available when making workforce decisions. Obviously, the goal 
here is if we don't have to, you know, lay off folks, if we can 
have a rightsized force for as long a period as possible, 
better for everybody. Have you concurred with the 
recommendations in the GAO report? And if so, are you moving 
forward with them?
    Ms. Merdon. We are actually delighted with that report, and 
the reason why is, you know, from a manager's point of view or 
employee's point of view, having swings in hiring and laying 
people off is you're not being a good employer. And it also 
becomes very difficult to retain people.
    So prior to the GAO engagement, we started developing a 
policy that would provide more rigor in how we do our planning 
of our workforce, also better commitments from the 
jurisdictions on money for funds for projects because the CD 
workforce is temporary employees because there is no 
appropriation, they are only project funded.
    So we put that policy on pause when GAO engagement began, 
and after the engagement, when we got the draft, we were 
absolutely delighted because they were recommending the same 
direction that we wanted to head to provide more rigor. We 
already had a plan as far as planning the work and, you know, 
doing what the industry calls resource leveling to keep the 
workforce steady, but the missing piece of that was the 
appropriations, getting commitment from the jurisdictions on 
the project funding. And by having GAO indicate that's one 
thing we need to do, and we were headed in the same direction, 
that is absolutely the right path we want, and that kind of 
confirmed where we needed to go.
    Senator Murphy. And thank you for that and thank you for 
taking that issue seriously.
    Lastly, on the Russell Stone project, behind schedule. How 
far behind schedule? What do we know about the ability to hold 
folks accountable for the delays? And then is there a way to 
kind of wrap this into the concern you have about your shortage 
of contracting personnel to oversee these contracts? I know you 
have a real worry that you don't have the folks you need in 
order to, you know, move these contracts and address issues 
that come up as contracts move along. This is a big-ticket item 
that's had some issues, and I know you want to have the ability 
to take care of issues that inevitably come up in these big 
projects as quickly as possible, and you worry that you don't 
have them now.
    Ms. Merdon. Thank you for recognizing the Russell Stone. 
And, yes, on the first sequence of work, we did have 
significant delays. Some of them were delays caused by the 
contractor's quality of work, and some of those were delays on 
us being able to answer questions or to track down information 
that we needed. And I think you're identifying, you know, maybe 
having more contracting officers or more project managers would 
help facilitate getting those questions answered.
    The Russell Stone, the first sequence actually completed at 
the end of the year. We are on track with the second sequence, 
which you'll see on 1st Street and Constitution. That will be 
done by the inauguration. And then the next sequence, the last 
sequence, on Delaware Avenue, will be awarded prior to the 
inauguration to begin after the inauguration.
    We did hold the contractor accountable. I was personally 
involved meeting with their executives coming from the Midwest 
to talk about ways to make corrections. So on the second 
sequence, we used those negotiated terms, those best practices, 
to keep the project on track, and it's working very well.
    Senator Murphy. Is it the same contractor on the second 
phase?
    Ms. Merdon. It is the same contractor, but they recognized 
that they needed to make changes in the processes primarily 
around the restoration of the windows. They developed a process 
that's more efficient where they're doing the restoration 
offsite, I believe it's in Ohio, and then after they restore 
it, they ship it to the site. I think we're taking a better 
pace on it, and that's working well for the project.
    Senator Murphy. Well, thank you to both of you. You are 
both exemplary public servants. We are very lucky to have you. 
These are not easy jobs with the resources being constrained as 
they are, but you bring a level of integrity and enthusiasm for 
your work to this subcommittee and to the Capitol and the 
Library every day. We appreciate your being here.
    Senator Hyde-Smith. Thank you, Senator Murphy.
    Ms. Merdon, you are requesting an additional $24.9 million 
in the Capitol Construction and Operations jurisdiction, and 
that's an increase of 24 percent, which is the largest 
operating budget increase across all jurisdictions. In addition 
to the $10.5 million increase provided in the fiscal year 2019, 
this would be a $35 million, or 37-percent, increase for this 
jurisdiction over the last 2 years. Can you describe the 
specific need for such growth in this jurisdiction?
    Ms. Merdon. Yes, ma'am. And thank you for bringing this up. 
This is actually very important to me.
    As I mentioned in my opening statement, our work is 
increasing. So the purpose of this increase is actually to 
rightsize Central Services for the rest of the agency. Central 
Services provides HR support, IT, contracting, project 
management, safety and fire protection support for all the 
jurisdictions. That is critical. And our workload as far as 
projects has increased over the last 2 years by 36 percent. Our 
workload in security requirements, in preservation, in safety 
and fire protection. Recently, there was a fire in the Russell 
Building, and we're only one deep in people responding. The 
fire happened on a Saturday night at 9:00. If that person 
wasn't available, we wouldn't have a safety/fire protection 
engineer here to respond. So the adding additional safety and 
fire protection engineers as well as project managers, 
contracting officers, human resources, it keeps operations 
working and keeps projects on time. The purpose of this 
increase is primarily to rightsize.
    In the increase is also our IT budget, about $9 million. As 
I mentioned in my opening remarks, we are the lowest funded in 
the Federal Government. We are absolutely the lowest funded in 
the legislative branch for IT, 3 percent, where the Federal 
average is 11 percent. And we use IT just as we use tools in a 
toolbox. Our trades use IT. If you were to look at the dome 
under construction, they weren't carrying a roll of documents 
under their arms, they were using iPads. You, ma'am, you used 
the ``Suite Selection'' when you selected your suite. So it's 
our IT that helps develop efficiencies for those types of 
things, but if only we have a 3-percent budget, we are unable 
to do more and keep up with the rest of our industry.
    Senator Hyde-Smith. I understand that part of the requested 
increase in Capital Construction and Operations (CCO) is for 
support to all jurisdictions for capital projects. Right now 
there are 47 ongoing construction projects, according to my 
information, across the AOC, another 11 projects in study or 
design phases, and an additional 25 requested in fiscal year 
2020.
    While we have a duty to preserve and maintain our historic 
buildings, given the strain these projects place on the Support 
Division, are we perhaps taking on too many projects at one 
time? Can you elaborate on that?
    Ms. Merdon. Sure. The challenge that we face when we 
prioritize projects and when we present the budget to you, 
these are projects that we need either continuing phases of 
existing projects, addressing areas where deterioration has 
taken place where it becomes unsafe, and for critical 
infrastructure, like our utility tunnels, our emergency 
generators. So we're asking for things that we need, not that 
are nice to have or take on that's too much new.
    So when we take a look, we take a hard look at our budget, 
what can we accommodate, what's ready for construction, and 
what do we need just to continue with the mission to serve 
Congress?
    Senator Hyde-Smith. Okay. Regarding the generators, the 
request for the Library Buildings and Grounds jurisdiction 
includes two new emergency backup generators for the James 
Madison Memorial Building. The project cost is estimated to be 
$48.8 million. That's more expensive than the cost of 
construction for the collection Module 6 at Fort Meade. Can you 
help us understand the high cost associated with that project?
    Ms. Merdon. Certainly. The existing emergency generators 
are in the garage currently, which do not meet code. The 
emergency generators provide lighting for life safety and 
emergency systems for the building. To meet code, we need to 
install the generators on the roof of the building. So there 
are some structural upgrades that need to happen on the roof as 
well as after we're done, we know that there is going to be 
repair work to be done on the roof.
    So it's a combination of bringing it up to code, bringing 
very large pieces of equipment on top of a roof that wasn't 
designed to accommodate generators, you know, using a crane, 
shoring up or increasing the structural loading capacity of the 
roof itself, and then knowing that we're going to have to do 
repairs after that.
    Senator Hyde-Smith. Do you know how much the cost of the 
generators themselves are?
    Ms. Merdon. The generator cost is $10.3 million of the 
total project cost.
    Senator Hyde-Smith. But we're talking about two, correct?
    Ms. Merdon. Correct.

                    NATIONAL LIBRARY SERVICE REQUEST

    Senator Hyde-Smith. Okay. Dr. Hayden, the Library is 
requesting $7.4 million for the National Library Service to 
begin infrastructure modernization under its BARD website and 
invest in braille e-reader technology. This would be the first 
installment of a large investment in NLS with a goal of 
increasing access and expanding patronage of the program. Do 
you anticipate the growth in patronage will come from these 
enhancements, or does this initiative seek to meet existing 
demand not currently being met?
    Dr. Hayden. It will do both. As you know, this program is 
for people with reading disabilities, and that's for all ages. 
It's also for institutions as well. And so there is currently a 
need to be able to provide things in a more digital format. And 
after the pilot program--and the head of the program is with us 
here today--it was very apparent that we needed to do more with 
the aspect of digital delivery using eReaders and being able to 
have a system that will support that. And the anticipation is 
that we would have even more people who would utilize the 
services if we had the addition of more digital capacity as 
well. So there are already people wanting to have more digital 
delivery as well as we know that there will be more in the 
future.
    Senator Hyde-Smith. What is the estimated timeline for 
these changes to the NLS system?
    Dr. Hayden. The initial pilot I mentioned has yielded quite 
a bit of information, and so there is now a contract that would 
be let to start with approximately 2,000 of the eReaders, and 
that would be shortly that we would be experimenting with those 
and seeing that delivery. And so within the next year or so we 
would be able to get more information on how those eReaders are 
received and also how the process is working.
    Senator Hyde-Smith. Okay. Ms. Merdon, in your testimony, 
you mentioned that attracting and retaining talented employees 
is one of your biggest challenges facing the AOC today, and the 
CCO increase would provide investments in human capital 
management, including a talent acquisition specialist to assist 
in hiring demands and ensure fairness in hiring. What impact 
has this issue of employee retention had on the agency? And is 
there an area where there has been a larger issue than others?
    Ms. Merdon. Thank you, ma'am. And you are correct, we are 
asking for talent acquisition management. It is important to be 
a great agency, and as the agency participates in the best 
places to work in the Federal Government, we're actually rated 
in the top third for midsize agencies. You know, our talent 
acquisition uses different methodology besides USAJobs; we use 
opportunities to, you know, use LinkedIn and other ones.
    But you're right, we do have other challenges in the 
agency. You know, most recently, you know, prevention of sexual 
harassment is a focus for me that I think requires a culture 
change in the agency. You know, I have made great strides in 
changing the training for our employees; instead of biannual, 
we do it annually. I have stood up a 1-800 number for our 
employees if they experience sexual harassment to call 
anonymously. And I think there are other opportunities in the 
agency to make it a better place to work by aligning better 
organizational structure for more transparency and 
accountability as well as aligning our diversity inclusion, 
disputes resolution, our EEO office directly with the Architect 
of the Capitol, as recommended by our inspector general.
    So--so, ma'am, to make it a best place to work, you know, 
we always need to make improvements and culture change, and I 
am committed to making those changes.
    Senator Hyde-Smith. And how are you currently handling 
those issues with the current resources that you have?
    Ms. Merdon. We have made great strides in the last several 
months. We have emphasized civility in the workplace, and 
instituted annual and mandatory prevention of sexual harassment 
courses. Since I assumed the Acting Architect role, I swiftly 
established a confidential hotline, coordinated additional 
training and met with leaders of the Office of Congressional 
Workplace Rights to establish clearly that I place a priority 
on a safe and respectful workplace. But I think there is more 
opportunities to make improvement, even as Acting Architect, to 
make this an even better place to work.
    Senator Hyde-Smith. So right now what you have currently 
you don't think is just quite adequate?
    Ms. Merdon. It's not quite adequate. I think it's important 
to provide additional oversight by restructuring staff, 
including moving the Diversity, Inclusion and Dispute 
Resolution (DIDR) to report directly to the Architect as 
recommended by a study done by our inspector general. I think 
even giving that presence would make a big difference, and also 
additional funds in the future. But I think focusing on hiring 
people, to hire the right people. I think human resources, 
attracting the talent, and just making this a great place to 
work and addressing cultural issues is important for me.
    Senator Hyde-Smith. Okay. Thank you for that. Ms. Merdon, 
this subcommittee has shown support for the Botanic Garden and 
the educational program it offers. This year's request includes 
funding to continue and expand the Urban Agriculture program. 
Can you give us some updates on this program and what you might 
expect from the new educational programming?
    Ms. Merdon. Sure. And we greatly appreciate the support 
that you have provided us in the past. So Urban Agriculture, we 
have partnered with other botanic gardens, including the 
Chicago Botanic Garden. We will be working with entities in 
Ohio on a train the trainer program, meaning we will provide 
instruction and educational resources to those who help others 
who want to learn more about urban agriculture. We have also 
worked with ``Armed to Urban Farm,'' which is a program 
teaching veterans and active duty military about urban 
agriculture, how to manage an urban agriculture farm. And then 
with your assistance and with your support, we actually hired 
an urban agriculture education specialist who now works at the 
Botanic Garden.
    Senator Hyde-Smith. Thank you.
    Senator Murphy, do you have any more questions?
    Senator Murphy. No, I'm all set.

                          SURPLUS BOOK PROGRAM

    Senator Hyde-Smith. Okay. Senator Lankford is on his way, 
and I think he did have some questions. I think we've covered a 
good bit of material today, and you've provided some very good 
answers, and maybe he will be here quickly.
    There is one other program that I am interested in because 
Mississippi is such a rural State, and that is the Library's 
Surplus Book Program. Dr. Hayden, as you know, it's very 
important, especially to my State and across the country in 
these rural areas, that additional resources were included for 
the program in the fiscal year 2019 legislative branch bill. 
Can you provide a general update on how the program is 
operating today and your plan for these additional resources?
    Dr. Hayden. The Surplus Books Program is an excellent way 
to provide new books for all ages to jurisdictions, and in the 
2018 execution of that, we had 76,000 items that were supplied 
to participants in 30 States, participants received books as 
well as 103 congressional offices that actually selected the 
surplus books to be sent for jurisdictions. I was able last 
year to actually be present in several States when surplus 
books were being presented by Congressional Members. And it 
means so much to schools, local libraries, especially libraries 
and schools that have had damages from tornadoes, hurricanes, 
fires, to receive brand-new books. And so with the execution, 
we are also expanding our outreach through our website and the 
congressional offices. One of our best ways to get the word 
out, is through the congressional offices.
    Senator Hyde-Smith. Great. That has been very helpful.
    Senator Lankford, I'll recognize you for your questions.

                VISITOR EXPERIENCE--EXECUTION OF FUNDING

    Senator Lankford. Thank you very much.
    You all, thank you. Thanks for your work and thanks for 
what you're doing. I've got several questions. You may have 
already dealt with some of them, hopefully not, but I've been 
bouncing back and forth doing a couple things to try to be able 
to cover this. But I appreciate very much your service.
    Carla, it's good to see you again. Thanks for all your 
ongoing work. The Visitor Center experience, the $8 million 
that's still to be allocated this year, what is that part for?
    Dr. Hayden. With the approval of the Master Plan, that is 
to be formally presented to Congress this June, the contract 
was awarded to Pure+Applied, that was the design firm, in 
August of 2018. Upon approval of the plan, there would be 
design and contracting for the implementation and really the 
construction of the Treasures Gallery and the Youth Center.
    Senator Lankford. So is the $8 million for that 
construction? Because the $2 million, the first $2 million, 
that's been allocated----
    Dr. Hayden. For the Master Plan, right.
    Senator Lankford [continuing]. Is for the Master Plan to be 
able to get going.
    Dr. Hayden. Right.
    Senator Lankford. Is it $8 million design or is that $8 
million actually brick and mortar experience construction?
    Dr. Hayden. It will be design, and that will include the 
actual blueprints--and if AOC wants to jump in, you can with 
that--and also to award the contracts for the actual 
construction. You know, it's a contract----
    Senator Lankford. But it's not actual construction. This 
$10 million, $2 million is Master Plan, and $8 million is 
blueprints and design. None of that is construction. Is that 
correct or not correct?
    Dr. Hayden. It--from what I understand and what will be 
part of the contracts would be looking at how we could then go 
with actual construction, but it's not the actual construction.
    Senator Lankford. Okay. Do you have anything you want to 
add to that?
    Dr. Hayden. Yes, you might want to put the technologic.
    Ms. Merdon. Not--not at this time. I mean, you know, 
typically the plans cost, you know, maybe between 6 and 12 
percent of the actual construction, and then the actual 
construction, of course, is significantly more. I think you're 
in the very early planning phases. It is important that our two 
agencies coordinate and collaborate throughout the concept 
development phase to ensure final design and construction 
documents fully account for fire and life safety requirements, 
historic preservation and overall budget costs.

                 VISITOR EXPERIENCE--FUNDING STRUCTURE

    Senator Lankford. Right. So you're talking about $60 
million in total construction or $60 million just the Federal 
portion of construction?
    Dr. Hayden. The actual construction--and this is where the 
phasing and how you look at the actual fabrication--would be a 
portion of the entire 60. The design and development and the 
blueprints is another portion.
    Senator Lankford. So you're talking $10 million, $10 
million for Master Plan and design, $60 million for 
construction, and then there is also a private portion of it? 
I'm trying to figure out all the numbers.
    Dr. Hayden. The private portion of the 60, the entire 
project is 60.
    Senator Lankford. Okay.
    Dr. Hayden. With the three components, the Treasures 
Gallery, the Youth and Lifelong Learning Center, and the 
orientation area, that is actually a revision of getting into 
the Main Reading Room, which you saw initially. The thought was 
to have people walk in. We've definitely seen that that is not 
feasible to have people walking into that. So that is the 
orientation area. So there are three aspects. And the $20 
million from private sources is part of the $60. So the 
partnership would be 40----
    Senator Lankford. Right.
    Dr. Hayden [continuing]. From public sources and 20 from 
private.
    Senator Lankford. The 40 includes the $10 million that's 
already been allocated.
    Dr. Hayden. Yes.
    Senator Lankford. Okay. So $40 million total to complete 
the project from the Federal tax dollars. Will that include the 
ingress/egress stairs outside? Because I know that was part of 
the conversation as well, is that we've still got an ingress/
egress portion.
    Dr. Hayden. No.
    Ms. Merdon. No, that is an AOC appropriation.
    Senator Lankford. Is that still around $24 million? Where 
is that?
    Ms. Merdon. It's--it's about $24 million, but I think 
we're--we received that appropriation for the north stair 
already. Ultimately, there will be four stairs throughout the 
building, but we're starting on the north stair right now.
    Senator Lankford. Will that be complete by the time the 
Visitor Center area is complete?
    Ms. Merdon. It's under design right now, and we are taking 
a look at the impact that the visitors experience will have on 
the size of the stairs. Dr. Hayden anticipates there will be 
more visitors, which impacts the size of how big it is, you 
know.
    Senator Lankford. Sure. And that was part of our 
conversation a couple years ago----
    Dr. Hayden. Yes.
    Senator Lankford [continuing]. To be able to make sure 
we've got stairs to address the ingress/egress problems 
already. We don't want to increase capacity without having to 
solve that one first.
    Ms. Merdon. Right. So we are working with the Library, in 
lockstep with them on the stairs.
    Senator Lankford. Okay.
    Dr. Hayden. And that's what we mentioned earlier, that AOC 
has been involved. Also, Capitol Police in terms of security 
and what will be the impact as well. So they've been involved.
    Senator Lankford. Madam Chair, may I ask a couple more 
questions with this because----
    Senator Hyde-Smith. Absolutely.
    Senator Murphy. Can I just piggyback on yours before you 
finish?
    Senator Lankford. Absolutely.
    Senator Murphy. This $10 million design to $50 million 
construction sounds like----
    Senator Lankford. High.
    Senator Murphy. Sounds high.
    Ms. Merdon. It--it depends on the complexity of the job. If 
you're building an office building in the suburbs, that number 
is going to be low. If you're building something in a historic 
building that requires historic preservation, very intricate 
designs, a lot of consultants coming in on historic 
preservation, structural issues on a historic building, that's 
going to raise the cost. I've seen it where a design can be 
about 30 percent of the construction costs because it's a very 
complex project. And this is I would consider a complex project 
because where it's being located and just, you know, we have to 
look at fire protection, historic preservation structure, and 
you've got to bring all those consultants in as well as your 
visitor experience consultants, which adds to that.
    Senator Murphy. Okay. I look forward to following up on 
that.
    Senator Lankford. Yes, I'd love to have a conversation on 
that just to be able to make sure we're tracking. I know you 
all are--there's a limited number of contractors out there that 
do this type of work as well----
    Ms. Merdon. Correct.

                   VISITOR EXPERIENCE--STAFFING NEEDS

    Senator Lankford [continuing]. And that does make a 
difference on the competition. Originally that number, that $60 
million number, also included some staffing as well, to be able 
to staff the visitor experience.
    Dr. Hayden. Yes.
    Senator Lankford. Do you anticipate that $60 million total 
is all construction, design, everything else, or do you 
anticipate there is an additional request coming back to this 
committee for FTEs in the future to manage this long term?
    Dr. Hayden. With this request, in fact, there are three 
employees to handle the design and development, and one is an 
educational expert for in terms of the Youth Center and looking 
at the programming for that and starting out with that.
    We are looking at our current staffing in terms of visitor 
services, the docent population as well, and our teaching with 
primary resources and that, and so we'll be looking at what 
types of repurposing almost some of the functions as we look at 
more visitors----
    Senator Lankford. Do you anticipate when the Master Plan 
comes back to us complete----
    Dr. Hayden. We do.
    Senator Lankford [continuing]. That there will also be a 
recommendation of how many FTEs----
    Dr. Hayden. Yes.
    Senator Lankford [continuing]. You will need after it's 
complete?
    Dr. Hayden. Yes.
    Senator Lankford. Okay. That would be very helpful.
    Dr. Hayden. And the need might include how we would arrange 
staffing patterns in a different way----
    Senator Lankford. That would be very helpful.
    Dr. Hayden [continuing]. And that's the type of thing that 
we're looking at.
    Senator Lankford. That would be very, very helpful.
    I have just one last quick comment, and this one is kind of 
funny and different. As I run the Capitol, as a lot of people 
do, I have run the Capitol, around it, and when I get on the 
west side of the Capitol for the last several years, I run past 
some fabulous temporary lighting that's out there with 
generators and lighting, and I've run past those temporary 
lights for a couple of years, and I've wondered how long 
temporary lights go up in an area that looks like it will 
probably need lights on it period. And I only raise that to say 
that there is some level at some point that the Architect of 
the Capitol makes a decision we need a permanent thing here or 
we need a temporary thing here, and trying to just figure out 
the cost differential. But those temporary lights have been out 
there a while, and I would love to just be able to hear the 
mindset of at what point we need a permanent item there and at 
what point we need a temporary light, or something like that. 
Does that make sense?
    Ms. Merdon. That makes sense.
    Senator Lankford. Yes.
    Ms. Merdon. Just to fine-tune where those may be, I'm 
thinking those may be on Constitution Avenue?
    Senator Lankford. No. On the west side--on the west side of 
the Capitol facing towards the Mall area and just off the 
sidewalk close to the Capitol. So there's a couple light posts 
there with six lights on them--with a gas generator on the 
bottom, and every night they fire up the generator and run 
them, and they've been like that for a couple years. And I 
thought one day we're going to have a light post probably right 
there that we just flick on.
    Ms. Merdon. Those temporary lights are there at the request 
of the USCP. Our historic preservation office has sent them at 
least two letters regarding their status to encourage the 
removal of the temporary lights. In the near future, we are 
meeting with them to identify the lighting needs in that area. 
Following that discussion, we will develop a plan to better 
address the overall lighting security needs on the campus. I'm 
happy to provide you with more information on that plan 
following our meeting with USCP.
    Senator Lankford. Yes.
    Ms. Merdon. In addition, we identified several years ago 
that some light posts were unstable, so we have a replacement 
program.
    Senator Lankford. That would be great.
    Ms. Merdon. Okay. Thank you for bringing that up.
    Senator Lankford. Well, just grab your crew and some tennis 
shoes and we'll go run it one night and I'll show you exactly 
where it is when we go past it.
    Ms. Merdon. That may be exceeding expectations.
    [Laughter.]
    Senator Lankford. Thank you very much. Thank you.
    Senator Hyde-Smith. Senator Murphy, do you have any more 
questions?
    Senator Murphy. All set.

             CLOSING STATEMENTS OF SENATOR CINDY HYDE-SMITH

    Senator Hyde-Smith. Okay. This concludes the Legislative 
Branch Appropriations Subcommittee hearing regarding fiscal 
year 2020 funding for the Library of Congress and the Architect 
of the Capitol.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you, Dr. Hayden, and thank you, Mrs. Merdon, for your 
testimony today. The hearing record will remain open for 7 days 
allowing Members to submit statements and/or questions for the 
record, which should be sent to the subcommittee by close of 
business on Wednesday, April 3, of 2019.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Carla D. Hayden
            Questions Submitted by Senator Cindy Hyde-Smith
                          surplus book program
    Question. Dr. Hayden, the Surplus Book Program at the Library is a 
wonderful resource for libraries and schools in Mississippi and across 
the country, particularly in rural areas. The fiscal year 2019 
legislative branch bill provided additional funding for this program. 
How do you plan in coming years to make the program more effective?
    Answer. The program was established to make the best possible use 
of books that are surplus to the needs of the Library. The amount of 
books that are available for the program at any time is very limited 
based on the processing flows of the Library. In recent years, client 
demand has been satisfied by the selection available. However, if the 
program were to be publicized widely, the resulting increased demand 
could not be met, and clients would be dissatisfied. To make the 
program more effective, we plan to work more closely with congressional 
offices so that libraries and schools throughout the country with a 
need for these materials can be targeted. This will allow Members to 
serve their constituents directly through this Library of Congress 
service. This year the Library assigned a second technician to the 
program to meet increasing demands for information and appointments.

    Question. I have found that often the institutions that could 
benefit directly from the program are not always aware of this valuable 
resource. As you have testified, one of the main avenues of outreach is 
through our congressional staff and district offices, however I believe 
the program could benefit from additional methods of outreach. Have you 
explored ways in which the Library could increase awareness of the 
program?
    Answer. The Library reaches out to schools and other public 
entities about the surplus book program directly through its website, 
through trusted partners, and most critically through congressional 
offices. In order to communicate directly with interested organizations 
the Library maintains a website on the program (https://www.loc.gov/
acq/surplus.html), including eligibility requirements and instructions 
on application through or separately from a congressional office. 
Information on the program is also available linked from the ALA 
website (http://libguides.ala.org/book-donations/seeking-books), a 
trusted resource for public libraries, school libraries, and other 
educational institutions. However, the Library's most important 
outreach efforts for the surplus book program are through congressional 
offices, to help them spread awareness of the program among their 
constituents. These efforts, primarily through the Library's 
Congressional Relations Office, are multi-faceted, including: Every new 
Congress scheduling appointments with new Member offices to discuss 
Library services for them, their staff and constituents, including the 
Surplus Books Program; Following a natural disaster, sending a notice 
into the States/districts affected providing information about the 
program and how it can be used in their State/district (Library staff 
also liaise with FEMA on an ongoing basis to ensure awareness of 
emergency needs and support for recovery efforts); Developing a new 
promotional video for the program; Making Surplus Program bookmarks 
available to organizations; Maintaining a congressional-only facing 
website which includes a description of the program (http://
www.loc.gov/lcnet/constituent/); and advertising the program through 
the Committee on House Administration's weekly newsletter, as well as 
at district director meetings held at the Library of Congress. The 
Congressional Relations Office has done a remarkable job of promoting 
the program. Since the new 116th Congress took office, 39 new 
Congressional Offices have signed up for the Surplus Books Program.
                                 ______
                                 
           Questions Submitted by Senator Christopher Murphy
                      library visitor's experience
    Question. Dr. Hayden, I share in your excitement about the 
Visitor's Experience project. In total, I understand the project is 
expected to cost $60 million, and your vision is to share those 
expenses in a public/private partnership.
    In the Fiscal Year 2018 Omnibus Act, we provided $2 million for you 
to get started on planning right away and an additional $8 million that 
will be ``unlocked'' once we review your spending plans. Your fiscal 
year 20 request includes an additional $10 million for the project.
    What is the timeline for the $2 million? When can the Committee 
expect briefing materials for your plans for spending the remaining $8 
million provided in fiscal year 2018?
    Answer. With the award of the Master Plan contract in late August 
2018, the Library began drawing on the $2 million. When the Master Plan 
is submitted in June 2019, any monies remaining from the $2 million 
would go towards executing the approved Master Plan. The final master 
plan submitted in June 2019 will have a spending schedule detailing how 
the $8 million will be allocated.

    Question. What specifically is the plan for the additional $10 
million in fiscal year 2020?
    Answer. With the approved Master Plan, the first space to be 
designed and built will be the Treasures Gallery. The fiscal 2020 
request of $10 million would go towards the Treasures Gallery audio-
visual contract, and the Treasures Gallery exhibit fabrication/
installation/construction contract.

    Question. What portion of the fiscal year 2019 funding is 
designated for the Architect of the Capitol? Have those funds been 
transferred to the AOC? What portion of the $10 million requested in 
fiscal year 2020 will be for AOC activities related to the Visitor's 
Experience project? How do you foresee those funds being spent, based 
on the conversations the Library has had with AOC and in development of 
the Master Plan?
    Answer. To date no funding has been transferred to the AOC for this 
effort and the cost estimation process we are currently undertaking 
will specify the fiscal 2019 monies that would go to the AOC. We 
anticipate that the portion of the fiscal 2019 monies transferred to 
the AOC would pay for the AOC's Treasures design work.

    Question. What is the total budget--Federal and private funding 
together--for the program and when will it be complete? Where are you 
in terms of fundraising commitments and goals?
    Answer. A detailed cost estimate has been prepared by outside cost 
estimators and is currently being reviewed by the Library and the AOC. 
This detailed cost breakdown will be shared with Congress in the second 
project ``look-in'' to be scheduled in late April, early May. The 
numbers are on-track to be at the $60,000,000 that has been previously 
discussed.
    Current fundraising from the Library is $11,000,000 in verbal 
commitments.

    Question. How have you responded to the concerns of some 
researchers who are understandably nervous about more public access to 
the Main Reading Room? How are you ensuring those researchers can do 
their work and not be disturbed?
    Answer. The two areas in the Master Plan where visitors will have 
new views of the Main Reading Room (the Orientation/Oculus space, and 
the first floor viewing alcove) will not put visitors on the floor of 
the Main Reading Room. Researchers and their work will not be 
disturbed.
                            storage modules
    Question. The Fiscal Year 2018 Omnibus Act provided a considerable 
investment of $45 million for a ``double-wide'' storage facility. This 
will be the 6th and 7th installments in a long-term project to relieve 
the Library's storage problems and to provide long-term, climate-
controlled storage for our most precious collections.
    How has the completion of the first 5 modules impacted storage here 
on the campus, in particular the life/safety hazards?
    Answer. Transferring collections to the environmentally optimized 
storage facilities at Ft. Meade has reduced but not fully eliminated 
the life safety risks from overcrowded aisles that restrict safe 
movement through the stacks. With the first five modules complete and 
with the additional storage space from Module 6 anticipated in 2021, 
the Library expects to clear all aisles and then begin rebalancing 
materials on the Capitol Hill campus to relieve overcrowding and double 
shelving. All of these efforts reduce the risks to the collections and 
occupants of the buildings, and improve the Library's ability to 
provide good inventory control and reliable order fulfillment.

    Question. What is the expectation for needing more storage modules 
once the first planned set of 13 is complete?
    Answer. The Library's storage requirements are driven by the rate 
of publication in the United States and globally, and the rate at which 
the Library acquires special format materials to build the National 
Collection. Book production quantities have not changed substantially 
over recent years: even as some information shifts from print to 
digital as a preferred format, total information output grows as well 
and demand for printed matter appears relatively stable. The Library 
also acquires materials of distinctive historical and cultural 
significance, whose value is inextricable from their physical format. 
Despite these continuing demands for storage space, the capacity 
planned for Modules 6, 7, and 8 will substantially address the 
Library's retrospective storage deficits, so the Library anticipates an 
update to its storage strategy for Module 8 and beyond, which will 
consider options available in storage technology and an updated 
evaluation of storage needs.
 impacts of no fiscal year 2020 budget agreements/post-sequester levels
    Question. Under the Budget Control Act, non-defense discretionary 
funding faces a cut of 9 percent in fiscal year 2020. Without a new 
budget agreement in place that lifts caps, we could see the legislative 
branch cut by at least $450 million if cuts are applied across-the-
board. This would have a devastating impact on the work we've done in 
recent years to restore Library and AOC workforces, modernize IT 
systems, and chip away at backlogs.
    Please describe for me how such cuts would impact your agency. What 
initiatives or projects from previous years would be postponed or halt? 
What would be the impact on your employees? Your fiscal year 2020 
request focuses on meeting the strategic goals of modernization and 
optimization for the Library's IT systems and also the experience 
visitors have when they come to the Library. How would you continue to 
try and meet those goals under post-sequester levels--or would you not?
    Answer. This response assumes having knowledge of the enactment by 
October 1, 2019 with 12 full months to react to the reduction. The 
later in fiscal 2020 that enactment occurs, the greater the 
magnification of the ability to absorb the reduction will be. A 9 
percent reduction from the fiscal 2019 enacted base of $751.9 million 
would be $67.7 million and result in a budget of $684.2 million for 
fiscal 2020. This reduction would be almost double the 2013 reduction 
of 5.1 percent and take the Library back to fiscal 2017 levels when the 
majority of the Library's major modernization programs began. There are 
multiple high-impact alternatives for absorbing a $67.7 million 
reduction. Of the fiscal year 2019 enacted total of $751.9 million, Pay 
represents about 62 percent at $465.2 million and Non-Pay is 38 percent 
at $286.2 million.
    A 100 percent ``Pay only'' solution could be pursued to cover the 
reduction, however, while leaving Non-Pay modernization contracts 
intact; this would result in a drastic 14.6 percent reduction in Pay. A 
reduction of this size to the pay account would extend or pause 
existing modernization initiatives, make it impossible to start any new 
initiatives, and create unmanageable processing backlogs due to 
disruptions in the workforce. A 100 percent Non-Pay solution would be 
even more disruptive to the Library's operations and programs as 
absorbing all $67.7 million out of the $286.2 million Non-Pay budget 
(or 23.7 percent) would drastically slow and halt many programs. While 
such a large reduction of 9 percent will have a negative impact on 
modernization and core operations, a combination Pay and Non-Pay 
solution may provide more flexibility for selecting or isolating the 
reductions and impacts. The most significant impact of any combination 
reduction at this level will be the negative impacts to all the 
modernization progress the Library has made and the continuation of 
those efforts in the fiscal year 2020 budget request.
Pay/Non-Pay Combination Solution
  --Implement 20 furlough days--avoids approximately $39.7 million
  --Implement a partial hiring freeze--could avoid up to $5.0 million
  --Reductions in various Non-Pay programs highlighted below--roughly 
        $23.0 million


                                      THE ESTIMATED IMPACT BY APPROPRIATION
----------------------------------------------------------------------------------------------------------------
                                      9 Percent Reduction Impact Estimates
-----------------------------------------------------------------------------------------------------------------
                                                      # of      Cost Avoidance                    Reductions to
         Appropriation              9 Percent       Furlough       Through       Partial Hiring      Non-Pay
                                    Reduction         Days      Furlough Days        Freeze          Accounts
----------------------------------------------------------------------------------------------------------------
LC,S&E.........................      $43,204,680           20      $29,418,974       $3,707,069      $14,680,063
CO, S&E........................       $8,406,630           20       $1,888,132         $237,922       $2,856,400
CRS, S&E.......................      $11,311,920           20       $7,381,046         $930,081       $3,843,558
BBPH, S&E......................       $4,750,470           20         $991,414         $124,928       $1,614,112
                                --------------------------------------------------------------------------------
      Total:...................      $67,673,700  ...........      $39,679,566       $5,000,000      $22,994,134
----------------------------------------------------------------------------------------------------------------


    Although any solution of this size will have a dramatic impact on 
operations and program, the combination of a 20-day furlough, partial 
hiring freeze and the remaining absorption from non-pay accounts would 
allow for a continuance of operations at a lower level. In this 
scenario, pay accounts would absorb $44.7 million and non-pay accounts 
would absorb $23.0 million. A 20-day furlough would absorb about $39.7 
million and a partial hiring freeze could absorb up to $5.0 million. 
The non-pay portion of the reduction would be $23.0 million, which 
would be absorbed through the calculated selection of the following 
items for reductions:

  --From Office of the Chief Operating Officer: contracted services 
        would have major reductions to achieve the necessary cuts:

    --Custodial $8.4 million contract, $1.6 million cut, reduces 
            cleanliness to minimum standards;
    --Momentum CGI $4.9 million contract, $1.1 million cut, reduces 
            financial management capabilities and support for 
            legislative branch agencies;
    --Guard Service $4.5 million contract, $1 million cut, fewer guards 
            and hours of coverage;
    --Master Collection Storage, $1 million contract, $1 million cut, 
            no additional shelving to support collections; and
    --Integrated Electronic Security, $1.1 million contract, $300,000 
            cut, no security expansion or upgrades.

  --From CRS:

    --Reductions to research material budgets, professional development 
            and travel, and deferment of some IT modernization efforts;
    --Possible extension of schedules of modernization programs such as 
            IRIS, LIS Retirement and Congress.gov.

  --From Library Services:

    --Mass De-acidification could be substantially reduced or suspended 
            and instead, collections can be safeguarded through 
            environmentally optimized storage;
    --Acquisition Budget--GENPAC reduction of $3 million (19 percent of 
            the budget) would eliminate 75,000 items from acquisition 
            and made available to support Congress and the American 
            people;
    --Postpone the replacement of end-of-life MAVIS collections 
            management system that system supports NAVCC, Music, AFC 
            and VHP in documenting collections and the preservation 
            workflows;
    --Reduction in the digitization would significantly reduce the 
            offsite accessibility of collections and would result in 
            producing 1 million fewer master files and represent a 30 
            percent drop in production;
    --Catalog conversion work would be halted, reducing inventory 
            control of and user accessibility to more than 500,000 rare 
            and special collection items;
    --Cuts to preservation reformatting and binding programs would 
            compromise inventory control and long-term collection 
            availability;
    --A 28 percent reduction in web harvesting--increasingly critical 
            as a method for documenting and acquiring content related 
            to U.S. Elections, Congress, and digital publications of 
            State agencies; and
    --Foreign Language contracts including West Africa--Would not 
            acquire approximately 5,875 books and serials from twelve 
            countries in western Africa, where it is very difficult to 
            acquire research-quality collection materials. These 
            materials support Congress and the American people in 
            researching urgent questions of geopolitical and medical 
            importance.
    --May result in reduction of evening reading room hours in order to 
            fully support core business hours (M-S, 8:30 am-5:00 pm).

  --From Office of the Chief Information Officer:

    --Given the interconnected nature of IT projects underway to 
            overhaul the Library's technologic foundation, the 
            reduction would have an outsized effect felt for several 
            years reversing tremendous modernization progress of the 
            last few years;
    --Extends the use of outdated infrastructure potentially increases 
            IT security vulnerabilities and the expense of running and 
            maintaining the Library's networks, continue suboptimal IT 
            performance for Library staff and others who rely on the 
            Library's network, and limit modernization efforts due to 
            inadequate IT infrastructure; and
    --Slowing IT infrastructure modernization efforts would be 
            necessary, with a corresponding increase in operational and 
            security risks. Resulting in:

      -- Potentially extending the Data Center Transformation project 
            completion date, keeping the outdated Madison Data Center 
            operational longer; Postponing related IT infrastructure 
            improvements, including modernization of the Library's 
            other data centers, enhanced wireless services, and 
            expanded IT Security monitoring; surge support for IT 
            infrastructure optimization would likely need to be phased 
            down; planning and execution of modernization efforts for 
            major systems that support Congress and the American people 
            would likely need to be reigned-in, including:

 -- Copyright IT modernization;
 -- CRS Integrated Research and Information System (IRIS);
 -- NLS Infrastructure and Bard modernization;
 -- Congress.gov continuous development and retirement of LIS;
 -- LOC.gov continuous development; and
 -- National Library Systems modernization.

  --From Office of the Inspector General:

    --Eliminate audit contract funding of approximately $200,000. This 
            would eliminate OIG's ability to obtain IT audit specialty 
            consulting expertise that are needed in identifying cost 
            efficiencies in the IT and Copyright Office modernization 
            efforts; and
    --Modify hiring plans by not hiring and effectively reducing staff 
            from 15 to 14 FTE's and reducing the rate structure in 
            hiring plan which will result in less experienced hires.

  --From Law Library:

    --Significantly reduces contractual services for collection 
            maintenance assistance resulting in a reduction in 
            accessioning, maintenance, preservation and inventory 
            services for the Law collection. This adversely impacts the 
            Law Library's ability to efficiently and effectively serve 
            the Law collection to users;
    --Suspends reclassification of law collection materials to the 
            Class K standard, from a generic, substandard 
            classification standard. As a result, volumes of the Law 
            collection will remain insufficiently classified, making 
            them less secure, harder to locate, and take longer to 
            serve; and
    --Reduces contractual services for digitization of collection 
            materials such as the U.S. Serial Set, thus delaying 
            completion of this project and limiting online availability 
            of this collection.

  --From U.S. Copyright:

    --A 9 percent cut to the BASIC appropriation and to the 
            appropriation available for Copyright Royalty Board 
            personnel expenses would require the cancellation or 
            deferral of ongoing modernization activities;
    --Deferring modernization activities and/or reducing staff 
            resources will have severe negative effects on the Office's 
            ability to provide efficient and timely services to the 
            public, such as registration and recordation processing 
            times and increases in backlogs;
    --The Copyright Royalty Board appropriated personnel costs would be 
            impacted. This could create pressure on the USCO's BASIC 
            appropriation to maintain the minimum staffing of the CRB 
            allowed under the Copyright Act; and
    --With the enactment of the Music Modernization Act (MMA) in 
            October 2018, the CRB, will be required to increase 
            workload commencing reviews of the operating budget of the 
            Music Licensing Collective, and initiate new proceedings to 
            determine allocation of contributions to that budget by 
            various licensees and licensee representative groups.

  --From NLS:

    --At a transformative time to continue to strategically transition 
            into a digital future, the initiatives and projects from 
            previous years, which would be impacted, postponed, or 
            halted are numerous. For example, the following are 
            modernization activities that will not be completed:
      -- Pilot program for a new smart phone based player;
      -- Research and development and pilot programs for next 
            generation digital delivery services such as the smart 
            speaker with voice control and on-demand streaming 
            services;
      -- Modernization of existing NLS data systems to interface with 
            new digital delivery services; and
      -- Impact on employees would be significant. Highly beneficial 
            and productive morale would diminish as project development 
            would slow or stop, resources would not be available to 
            meet mission requirements, and patron frustration would 
            increase as a result.

    --NLS' ability to modernize and optimize its IT services and 
            capabilities and the congruent patron experience from those 
            services would be severely tested;
    --A slowdown and extension of moving from physically based 
            services, relying on hard-copy braille and physical-media-
            based talking books into a wireless delivery system 
            utilizing digital braille files and optimizing the delivery 
            and use of existing digital talking book files;
    --A halt modernization efforts to reduce costs and serve twice as 
            many Americans who are unable to use standard print due to 
            visual, physical or reading disabilities.
    --Will be unable to improve delivery to patrons or provide a 
            greater selection of titles to choose from both in audio 
            and braille formats; and
    --The most severe consequences would be felt in the elimination of 
            funds for its two current fiscal 2020 program requests to 
            modernizes the NLS braille and talking books programs:
      -- Providing braille eReaders and replacing end-of-life-cycle 
            digital talking book players; and
      -- The modernized Braille and Audio Download (BARD) initiative 
            will enhance service to NLS patrons by replacing the BARD 
            web site with modernized, cloud-based, scalable, micro-
            service-based infrastructure to deliver talking and braille 
            books and magazines via the Internet as called for in the 
            2016 GAO-16-355 report. Funding is needed to support new 
            positions, software development, cloud-computing expenses, 
            and data management.
                      crs reports ``going public''
    Question. The fiscal year 2018 Omnibus included a provision 
directing CRS to make all of its current and prior reports public. This 
is a big win for transparency, and I'm excited especially that students 
and researchers now have access to the high-quality products created by 
CRS. I'm also proud of the fact that the provision fully protected the 
confidential work CRS performs for Members and our staff and ensured 
that CRS's mission remains as supporting the Congress.
    How has the rollout gone for the reports to be available online? 
Were you able to meet the benchmarks we laid out in the law? Will you 
need to take further action in fiscal year 2019?
    Answer. There are currently 3,648 CRS products on the public 
website, as of April 18, 2019. CRS has met the requirements laid out in 
statute and exceeded the timelines originally set out for publication.

    Question. When do you expect that CRS will fully comply with this 
direction and have all reports online and accessible by the public?
    Answer. All products required by law to be made publically 
available will be on the public website by September 30, 2019.
                   copyright it system accountability
    Question. In 2017, the Library's Inspector General reported on the 
unsuccessful development of a Copyright IT system. OIG noted that 
Copyright expended approximately $11.6 million; however, the audit 
noted that Copyright and the Library did not have a formal project cost 
analysis and tracking methodology at the project level. This resulted 
in inadequate reporting on the project's development with Copyright 
unable to report whether the project was on time and within budget. 
Properly estimating and tracking total costs is critical to cost-
benefit analysis, especially since the Library and Copyright have made 
IT modernization a priority, and Congress has made considerable 
investments for those projects.
    What provisions has the Library made to improve the accounting for 
capitalized project development costs?
    Answer. The Library has completely revamped how IT projects at the 
Library are managed and controlled since that incident. All technology 
activities have been centralized under the Library's Chief Information 
Officer. A new IT governance model has been implemented that makes IT 
investment oversight a responsibility of the Library's executive 
leaders. The Library is adopting Technology Business Management (TBM) 
to ensure that IT costs are fully transparent and aligned with the 
Library's mission and vision.
    To ensure direct oversight of all IT projects, a centralized, 
Library-wide Project Management Office (PMO) within the Office of the 
CIO (OCIO) has been created. The PMO enforces the Library's project 
management processes and ensures that major IT projects are 
consistently and effectively managed. The PMO provides the CIO and OCIO 
senior leadership with a monthly Interim Progress Review (IPR) for all 
IT projects, tracking the four-pillars of project management: cost, 
scope, schedule, and risk.

    Question. Is the Library able to capture and capitalize all 
material internal development costs (including labor)?
    Answer. The Library recognizes the importance of being able to 
capture and capitalize all material internal development costs, 
including labor. However, the current process is not automated and 
requires significant manual input. The Library has completed a study on 
fully automating the capture of labor hours and costing. Until a tool 
to automate the capture and costing of labor hours is identified and 
implemented, the Library is committed to capturing labor hour tracking 
and costing for major IT investments manually.

    Question. At any time during the course of an IT development 
project, can OCIO and the CFO report whether the project is on time and 
total costs are within budget?
    Answer. Yes. The Library is still maturing its IT governance and 
finance controls, however, all chartered IT projects are managed by the 
PMO, and cost, scope, schedule, and risk are actively monitored.
                        it system modernization
    Question. The Library has established two major IT modernization 
programs. One for the Library at large and one for Copyright. Congress 
approved $75 million for the Copyright Modernization program to be 
completed over the next 2 years.
    Have you established a baseline for the Library-wide IT 
modernization program including current costs to date, projected total 
and yearly modernization development costs, and project planning 
details including the critical path by year?
    Answer. The Library has several major IT modernization projects 
either underway or in the planning phase right now.
    The Library launched a 3-year Data Center Transformation project in 
fiscal 2018 to restructure the agency's foundational IT infrastructure. 
That project, which is creating a modern, scalable data network--
including a new state-of-the-art data center and cloud hosting 
environments--to replace the outdated Madison Data Center (DC1), is a 
critical part of the Library's effort to stabilize and optimize 
information technology.
    The Library has also launched two other major multi-year IT 
modernization efforts with Congressional support--one for the U.S. 
Copyright Office and one for the Congressional Research Service--both 
of which are off to solid starts.
    Finally, the Library has two significant IT modernization efforts 
in planning:
      1.  The Library's budget proposal for fiscal 2020 requested 
additional funding to support a modernization program for the National 
Library for the Blind and Physically Handicapped.
      2.  The Library is in the planning stages for the next generation 
National Library Systems, which will provide modern tools to support 
access to and management of the Library's collections. The Library 
anticipates having an initial plan for that effort to present to the 
Committee for fiscal 2021.
    It is important to note that once the Library's many important 
modernization efforts are completed, the Library will need to maintain 
a continuous development effort to ensure that the IT systems are kept 
current and that functionality is added as necessary to meet the 
demands of Library users--with, of course, Congress at the top of that 
list.

    Question. Have the success (outcome) measures been established for 
each year? Will you provide those to the Committee?
    Answer. In fiscal 2018 the Library launched the five-year Copyright 
IT Modernization program comprising several IT projects. The overall 
scope of the program will transform the Copyright Office into a modern 
organization better suited to meet current and emerging trends in the 
copyright landscape, as well as future changes to law. Leveraging 
current software development methodologies, Copyright applications will 
be incrementally developed and have ongoing sustainment & continuous 
development support to ensure that the Copyright Office can maintain a 
suite of IT services that will enhance its ability to deliver quality 
and scalable services. Among the initial IT projects prioritized by the 
Copyright Office are the Historic Public Records (HPR) Program: Virtual 
Card Catalog (VCC); Development of a Recordation system pilot; and User 
Experience Research for the next generation Enterprise Copyright System 
(ECS). Additionally, in late fiscal 2019 software development for the 
Public Records and Registration functionality are planned to commence. 
Beyond fiscal 2019, the ECS roadmap is targeted to deliver modernized 
IT systems to support other activities of the Copyright Office 
including Licensing Division Modernization, Copyright Division Workflow 
Modernization, and Historic Public Records Modernization.
    The modernization effort for the IT systems that support the 
National Library is still in initial planning. The Library will be 
happy to share the plan--and related outcome measures--with the 
Committee as soon as possible.
               copyright backlog--it & staffing solutions
    Question. The Copyright Office has been in planning mode for 
several years to modernize its registration system. This is sorely 
needed to speed up processing times to match the influx of copyright 
needs due to the explosion of digital media. We provided more than $12 
million in fiscal year 2019 to finally kick off the $54 million, 5-year 
effort to build this new system, and it will also finalize a separate 
but related project to digitize the repository system for ownership of 
active copyrights, since they can be transferred.
    For the NextGen Registration System, what steps have you take to 
seek input from creative industries, and has that feedback been 
incorporated? How are you continuing to involve them in the process so 
that user needs are the main focus?
    Answer. The Copyright Office is dedicated to involving the public 
in the creation of the modernized online copyright registration system, 
which will be a key component of our enterprise copyright system (ECS). 
We understand that public input is crucial and that we must develop a 
system that can accommodate individuals and entities from throughout 
the diverse copyright community.
    As detailed in my Senate testimony, the Copyright Office has 
engaged and informed the public in a variety of ways, and will continue 
to do so throughout development of the new system. To date, the Office 
has conducted extensive public outreach with the Library of Congress's 
Office of Chief Information Office (OCIO) and a contractor to initiate 
the design of public interfaces for the recordation and registration 
functions. This outreach included, among other things: (1) visiting 
four cities (Washington, D.C.; New York; Los Angeles; and Nashville) to 
conduct sixty-eight in-depth interviews with copyright registration and 
recordation applicants and other public stakeholders; (2) conducting an 
extensive online survey, which received over 10,000 responses; and (3) 
using this public feedback to develop preliminary wireframes for new 
systems that will allow ongoing user testing and further refinement of 
user interfaces. We will continue to engage the public on the 
development of the system, and will work with a cross-section of the 
copyright ecosystem to ensure that we are able to provide a vastly 
improved information technology experience. Additionally, we intend to 
tailor and evaluate the effectiveness of our creative community 
outreach efforts throughout each stage of system development, 
leveraging lessons learned to inform and customize subsequent efforts. 
At any time, the public can contact us at our dedicated modernization 
email address <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0b1a3bbb3bdbf90b3bfa0a9a2b9b7b8a4feb7bfa6">[email&#160;protected]</a>, which we closely monitor.
    Beyond these efforts, we understand the critical importance of 
engaging the copyright community directly in analyzing the legal and 
policy aspects of modernization, including the registration and 
recordation processes. Our October 2018 Notice of Inquiry on 
Registration Modernization solicited public input on many issues, 
including improving registration regulations and practices, the utility 
of the public record, and the deposit requirements for registration. 
This Notice provided an opportunity for members of the public and the 
creative industries to provide frank commentary, and we appreciate the 
many comments we received. We plan to release additional, more targeted 
notices as appropriate, and will continue to ensure that public input 
on policy issues are considered in the development of the new systems.
    Additionally, we are committed to making sure the public is kept 
informed of modernization developments. We launched a webpage solely 
focusing on modernization (www.copyright.gov/copyright-modernization/), 
which includes an overview of modernization issues, a year in review 
summary, quarterly quick fact updates, and information on our recently 
launched bi-monthly public webinar series that explores a variety of 
modernization topics and includes time for questions and answers. As 
mentioned in my testimony, senior Office staff have given multiple 
presentations that have included news on our modernization efforts, 
including at events such as the annual meetings of the American 
Intellectual Property Law Association, the American Bar Association 
Intellectual Property Law Section, and the Copyright Society of the 
USA, as well as a recent conference held at the USPTO. We are 
continuing to look for additional avenues to keep the public informed 
of our progress, and continue to prioritize public communications.
    Following up on the extensive work begun on the external user 
experience and user-interface design, the Office is poised to begin 
working with a contractor on designing the internal side of the 
registration system. Creating a more intuitive and flexible system for 
staff is essential to improve efficiency and productivity. This effort 
will include significantly enhancing supervisory and management 
functionality in the new system.

    Question. The fiscal year 2020 request also continues efforts to 
increase staffing to deal with the 300,000 application backlog--when do 
you anticipate the backlog will be fully cleared? What is the target 
time for turning around new registrations once your staffing efforts 
are complete?
    Answer. The Copyright Office is pleased to report that we have made 
significant progress in reducing processing times and the number of 
claims on hand with the help of new initiatives and additional 
staffing.
    Currently, the Copyright Office has 125,299 workable claims on hand 
as of April 6, 2019; these are claims for which we have received the 
application, deposit, fee, and anything else necessary to work on a 
claim. This number reflects the 45 percent reduction from March 2018 to 
March 2019 in pending workable claims, and is a nearly historic low. 
Additionally, we also have made major improvements in processing times, 
with the first half of fiscal year 2019 reflecting an average of 4 
months for online claims that do not need correspondence, a reduction 
of 33 percent since last fiscal year for the same type of claim. These 
advances are the result of improved staffing levels, the use of 
overtime for examiners, and related initiatives detailed in my Senate 
testimony.
    The Copyright Office staff have worked diligently to close pending 
claims in spite of budget and staffing pressures, increased complexity, 
varying types of materials at issue, and deposit requirements. For 
example, between 2010 and 2015, the registration program experienced a 
40 percent reduction in examiners, and, due to sequestration, staff 
were forced to take unpaid leave for several days during 2013. The 
Office is required to receive a significant number of physical deposits 
for published works that the Library considers for its collections. 
These deposits require additional processing and must go through the 
off-site security screening required on Capitol Hill and significant 
handling before being delivered to Registration examiners. Timing also 
depends on whether or not the Office must correspond with applicants if 
there are inaccuracies or deficiencies with an application--and the 
applicant is allowed a certain amount of time to respond to the 
Office's inquiries.
    Moving forward, additional staffing is expected to reduce 
processing times even further. Modernization of the Office's electronic 
system will also serve to create efficiencies and reduce processing 
times significantly, though timing issues relating to ``best edition'' 
physical deposits for the Library's needs and paper applications are 
factors that will continue to affect processing times.
                        e-readers for the blind
    Question. Expanded and enhanced services for Library users are 
priorities in your fiscal year 2020 budget request, with a combined 
increase of more than $7 million for eReaders and talking book machines 
and infrastructure modernization. In 2016, legislation was enacted 
requiring the Library of Congress's National Library Service to provide 
e-Readers directly to Americans who are blind. Digital braille 
devices--or ``braille eReaders''--open worlds of learning to the 
thousands of Americans who are blind or have limited vision. Just with 
an eReader in their hand--as opposed to accessing bulky paper books--
they can access over 400 State, national, and international newspapers 
through the NLS, which currently has 30,000 registered individual 
Braille users.
    How will modernizing the NLS' Braille and Audio Reading by Download 
(BARD) infrastructure meet the recommendations of the 2016 GAO report?
    Answer. In Report 16-355, GAO wrote that ``[e]ighty-five years 
after the program was established, NLS is providing an important 
service to many older and visually-disabled adults, but it is also 
missing opportunities to meet the needs of all groups eligible for 
services.'' Those opportunities were two-fold: a technological 
deficiency (``[T]here are obstacles to the wider use of BARD among 
NLS's customer base, but an NLS-provided audio player with wireless 
connectivity could mitigate some of these issues. Specifically, such a 
device would eliminate the multi-step process now required to download 
BARD files to a computer and then transfer them onto NLS's audio 
player.'') and a regulatory impediment (``To ensure that it provides 
all eligible populations access to its services and that its 
eligibility requirements are consistent with currently accepted 
practices, the Library of Congress should re-examine and potentially 
revise its requirement that medical doctors must certify eligibility 
for the NLS program for those with a reading disability caused by 
organic dysfunction.''). Thus, modernizing BARD meets the challenge of 
these recommendations by both transforming NLS' services into a 21st 
century digital model and by increasing the technical capacity of BARD 
to meet the challenge arising from an increased patronage due to the 
GAO-recommended easing of eligibility access for NLS services. As 
societal and cultural expectations increasingly rely upon and assume 
digital, cloud-based and micro-service capabilities, BARD's 
modernization is essential to meeting the recommendations of the GAO 
report and to meeting the expectations of NLS patrons.

    Question. How will upgrades to Braille eReaders and talking book 
machines impact the current way the Library uses them?
    Answer. NLS is excited about the potential inherent in providing 
refreshable braille devices because its braille-using patrons are eager 
to access this user-friendly technology. Providing these braille 
eReaders to patrons dramatically enhances the menu of NLS services by 
offering a service that is much more cost-efficient and convenient. 
Throughout the initial piloted roll-out and utilization of braille 
eReaders, NLS will continue to test for quality assurance to ensure 
patrons have access to the most reliable machine technology. As NLS 
continues to receive the resources necessary for purchase, it will 
further expand its number of braille patrons utilizing this new device.
    In terms of the digital transformation underway affecting the 
talking book machines, NLS will continue to distribute materials 
through the now-traditional method of providing digital talking book 
(DTB) devices through the mail service, even after incorporating the 
new wireless digital delivery system. As both NLS' digital capabilities 
as well as patrons' use of their own smart devices increase 
exponentially in years to come, it is anticipated that fewer patrons 
will utilize the traditional digital-talking-book methodology, lowering 
both NLS' costs and need to keep a high inventory of DTB machines as 
well as the expenditures of the U.S. Postal Service's Free Matter for 
the Blind Program.

    Question. When will the full program be rolled out? How many users 
to you aim to serve?
    Answer. The roll-out of the Braille eReaders will occur in phases 
to ensure proper quality control. NLS expects its eReader funding 
request for fiscal year 2020 to purchase approximately 3,500 eReaders. 
This allocation will build upon prior development, quality control, and 
pilot testing work done in fiscal years 2019 and 2020 utilizing fiscal 
year 2018 and fiscal year 2019 base funds for the purchase of 2,000 
machines. These allocations, plus the 14,000 total purchased in fiscal 
years 2021-2024, will provide approximately 19,500 new devices to the 
estimated two-thirds of NLS' 30,000 current braille readers who will 
want to use the new technology and do not already have one of their 
own. In addition, the fiscal years 2022-2024 funding, if approved, will 
allow for the purchase of new talking book machines to replace machines 
that have reached and surpassed their life expectancy. At an estimated 
$275 per unit cost, NLS will be able to purchase approximately 15,000 
talking book machines. These simultaneous developments will 
dramatically assist NLS in continuing to provide better, more modern, 
service to its clientele as it transitions into a digital and wireless 
future state in furtherance of its 1931 mandate.

    Question. What future investments do you anticipate NLS will need 
to meet these strategic goals?
    Answer. The combined $11.875 million requested for fiscal years 
2020-2024 ($2.375 million per year) for the purchase of braille 
eReaders and new talking book machines will greatly enable NLS to meet 
these initial strategic goals. NLS will be seeking other funding 
sources for the digital distribution component of this technological 
advancement. If it is successful, investment and resource needs beyond 
fiscal year 2024 will then solely come from NLS' base budget requests.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                       making crs reports public
    Question. I am proud to have championed legislation, enacted as 
part of the fiscal year 2018 Omnibus, making Congressional Research 
Service (CRS) reports available to the public. For too long, taxpayers 
had been funding these CRS reports--routinely relied upon by Members of 
Congress to inform their work and priorities--without meaningful access 
to them.
    Please provide a comprehensive update on the Library's 
implementation of this legislation, detailing which CRS reports are 
currently available to the public, what remains to be made public, and 
an estimated timeline for completion.
    Answer. There currently are 3,648 products on the public website as 
of April 18, 2019. The breakdown is as follows:


------------------------------------------------------------------------
                                                               Product
                       Product Type                             Count
------------------------------------------------------------------------
                            R-Series Reports
------------------------------------------------------------------------
Active R-series reports...................................  2,737
Archived R-series reports.................................  61
------------------------------------------------------------------------
                             Non-R Products
------------------------------------------------------------------------
Active In Focus products..................................  559
Archived In Focus products................................  2
Active ``Blog'' products (i.e., Insights and Legal          259
 Sidebars).
Archived ``Blog'' products (i.e., Insights and Legal        14
 Sidebars).
Active Testimony products.................................  8
Appropriations Status Tables..............................  8
                                                           -------------
      Total Products......................................  3,648
------------------------------------------------------------------------


    Prep work currently is being done on the archived R-series reports 
as applicable before we begin to republish them to the public website. 
Additionally, there are approximately 650 active non-R products 
remaining to be published from our backlist (and approximately 340 
archived non-R products). All products required by law to be made 
publically available will be on the public website by September 30, 
2019.

    Question. It is my understanding that the Library is currently 
publishing reports only as PDF files, not as HTML or text files. In PDF 
format, these files can be difficult to read on mobile devices, and 
particularly for individuals with visual impairments. Publishing CRS 
reports as HTML and text files in addition to as PDF files would 
significantly improve the usability of these reports at a time when 
millions of Americans rely upon their mobile devices for information 
and news.
    Is the Library capable of publishing all reports as HTML and text 
files in addition to as PDF files? What would be the additional costs 
and resources associated with such an effort?
    Answer. The Library takes no position as to publishing the reports 
as HTML and/or text files in addition to PDF files and would follow the 
direction of the committee.
    Pursuant to congressional direction in the Consolidated 
Appropriations Act, 2018 explanatory statement, CRS reports were made 
available to the public in a PDF format. PDF files are considered 
secure because they are digitally signed and cannot be changed or 
otherwise manipulated. It should be noted that many legislative branch 
agencies, including CBO, GAO, and GPO, make their reports available to 
the public only in digitally signed PDF. Adding additional formats at 
one agency may indicate a requirement that all legislative branch 
agencies make reports available in multiple formats, thereby indirectly 
increasing cost and allocation of staff resources.
    From a technical standpoint, the Library would need to adjust the 
crsreport.congress.gov site, as well as the CRS authoring and 
publishing (A&P) tool and CRS.gov to facilitate publishing reports and 
other content in HTML for the public. An initial estimate suggests that 
work would require one FTE developer 24 weeks to complete, at a cost of 
$61,000. Once developed, that A&P pipeline would support the 
publication of CRS products that fit current CRS standard formats. To 
the extent that the system would need to be adapted to facilitate the 
publication of non-standard CRS formats (e.g. older formats maintained 
in CRS X), the Library would need to conduct additional development 
work for each new template, with a comparable development time and 
cost.

    Question. While the law directs the Library to focus on making 
publicly available CRS reports produced after the date of its 
enactment, it also encourages the Library to make ``additional CRS 
products that are not confidential products,'' such as non-confidential 
historic reports, available to the public. I am specifically interested 
in whether the Library will make public non-confidential, historic CRS 
reports that are already digitized within the internal CRS repository 
known as CRSX. When asked whether that was feasible by Congressman Mike 
Quigley, you wrote in response that ``there are a number of 
considerations regarding the feasibility of migrating non-confidential 
CRS archived non-distributable products to the public site.''
    Can you please explain what such considerations would be, and 
specifically what additional costs and resources would be associated 
with such an effort?
    Answer. If Congress were to direct the Library to make already 
digitized historic CRS reports available to the public, the Library 
would need additional resources to implement the directive. The process 
used to publish current reports to Congress.gov cannot be used to 
publish all of the historic reports. Many of the historic reports were 
not authored using the existing authoring and publishing tool, so CRS 
staff have manually created the metadata for these reports, rather than 
it being captured automatically Further, since CRS will need to scan/
digitize many of these reports from paper, the OCR (Optical Character 
Recognition) file would likely not be accurate. A new publishing 
process would have to be developed and implemented to ensure the 
historic reports are published with the requisite quality and 
readability levels.
    The CRS X archive currently contains 28,581 reports, which fall 
into one of three groups based on publication year and technical 
characteristics. These two factors drive the level of effort to convert 
the document so that they are properly digitized, discoverable, and 
readable. Conversion of the current CRSX archive over a 1 year period 
would require about 40 FTE of contract support at an estimated cost of 
$2,400,000. Alternatively, CRS may be able to absorb the annual costs 
of document conversion if allowed a three year window to complete the 
project.


----------------------------------------------------------------------------------------------------------------
                                               Group 1                  Group 2                  Group 3
----------------------------------------------------------------------------------------------------------------
No. of products.....................  1,776                     6,137                    20,660
 
Publication year....................  2010-2018                 2000-2009                1914-1999
 
Level of Effort/report..............  1 hour                    1.75 hours               3 hours
 
Characteristics of reports..........  --Digitally produced      --Digitally produced     --Produced on
                                      --PDF versions available  --PDF may need            typewriters, word
                                      --Metadata automatically   verification for OCR     processors, or files
                                       extracted from report     accuracy                 no longer available
                                       to CRSX                  --May have incomplete    --Digitized into PDF
                                      --Likely to be             metadata                 from paper copies
                                       compatible with                                   --PDF may need
                                       workflow to push to                                verification for OCR
                                       public site                                        accuracy
                                                                                         --May have incomplete
                                                                                          metadata in CRSX
----------------------------------------------------------------------------------------------------------------

    Finally, this would not be a merely technical endeavor, there will 
be a level of review and judgment required to ensure that only products 
that were available for general congressional distribution are 
published (versus confidential responses to congressional requests). 
Not all historic documents were clearly marked at their time of 
creation.
                     national preservation programs
    Question. In Senate Report 115-274, accompanying Public Law 115-
244, Congress stated that it ``expects the Library'' to provide support 
to ``the National Film Preservation Program and the National Sound 
Recording Preservation Program, including the federally chartered 
National Film and National Recording Preservation Foundations'' in 
order to ``help preserve historical and cultural artifacts that would 
otherwise disappear or be destroyed over time.''
    Can you please describe in detail what kind of support the Library 
is providing to these preservation programs and foundations? What 
further support could the Library provide with additional resources?
    Answer. As of fiscal 2019, the Library currently provides to the 
Preservation Boards and Foundations the maximum amounts allowed by law.
Background/Additional Information:
1.  Film and Recording Preservation Boards
 a.  National Film Preservation Board (NFPB):
    Congress has authorized an amount NTE $250,000 per fiscal year. The 
Library has provided $250,000 to the Board each year since its 
inception in 1988. (2 USC, Chapter 5, Section 179v)
 b.  National Recording Preservation Board (NRPB):
    Congress has authorized an amount NTE $250,000 per fiscal year. The 
Library has provided $250,000 to the Board each year since its 
inception in 2000. (2 USC, Chapter 27, Subchapter 4, Section 1743)
2.  Film and Recorded Sound Preservation Foundations
 a.  National Film Preservation Foundation (NFPF). (36 USC, Subtitle 
II, Part B, Chapter 1517, Section 151711)
    Since its establishment, the NFPF has proved quite successful in 
raising outside support (cash and preservation in-kind services) and 
the Library in return has provided matching funds as provided by the 
legislation. Through fiscal year 2018, the Foundation had raised 
approximately $15.1 million (13.7 million of that in cash), while the 
Library distributed to the Foundation $8.4 million in matching funds. 
In fiscal year 2019, Congress appropriated the additional $470,000 so 
beginning this fiscal year and going forward the Library will provide 
$1 million to the Foundation each year in matching funds as long as the 
NFPF meets the legislative requirement. $1 million is the maximum 
amount Congress has authorized.
 b.  National Recording Preservation Foundation (NRPF): (36 USC, 
Subtitle II, Part B, Chapter 1524, Section 152411)
    The NRPF regrettably has not enjoyed great success in fund-raising. 
Through fiscal year 2018, the Recording Foundation has raised 
approximately $400,000 in outside support (300,000 of that in cash 
including a $250,000 donation from musician Jack White in 2013). Given 
these fundraising struggles, the Library has not provided matching 
funds to the Foundation thus far, but the Library has provided 
approximately $330,000 in Recording Board funds to the Foundation under 
contracts in an attempt to jump start the Foundations' fund-raising 
efforts and to allow some grants to be provided to the recorded sound 
community. Like the NFPF, the Recording Foundation is authorized to 
receive up to $1 million in matching funds each year.

    Funding provided by Congress through the years has been extremely 
helpful and produced some remarkable successes, albeit on a boutique 
scale. Though much appreciated, the present funding levels still fall 
short of what is needed to preserve our country's audio-visual heritage 
held at archives. libraries, historical societies and museums 
throughout the United States. We have provided a slate of potential 
projects, focusing on items of substantial impact which can be scaled 
up or down depending on the amount of additional funding, and are 
consistent with the recommendations in the National Film and Recording 
Preservation Plans maintained and implemented by the Library of 
Congress.
Film Board:
  --Preserve additional non-commercial NFR titles
  --Fund scholarships/internships to increase diversity
  --Work with technology partners to develop and fund cataloging and 
        preservation tools to explore additional ways new technologies 
        might enhance current practices.
Recording Board:
  --Mass nationwide scanning project of 78rmp recordings
  --Fund development of an audio digitization robot to preserve 
        endangered formats such as audio cassettes and lacquer discs
  --Rescue abandoned radio collections identified by the Board's Radio 
        Preservation task force as being in danger of decay or 
        disposal.
Film Foundation:
  --Increase scope of preservation grants
  --Revisit legacy digitization
  --Expand international partnerships to return U.S. films
  --Increase digital access and streaming capabilities at NFPF web site
  --Touring programs of films preserved by NFPF
  --Create new preservation grant program to fund preservation of films 
        now entering the public domain each year (works from 1923 on)
Recording Foundation:
  --Increase audio preservation grants significantly
  --Award grants to enhance web capabilities of individual archives
                                 ______
                                 
              Questions Submitted to Ms. Christine Merdon
           Questions Submitted by Senator Christopher Murphy
                      library visitor's experience
    Ms. Merdon, I share in the AOC and Library's excitement about the 
Visitor's Experience project. In total, I understand the project is 
expected to cost $60 million, and your vision is to share those 
expenses in a public/private partnership.
    In the Fiscal Year 2018 Omnibus Act, we provided $2 million for the 
Library and AOC to get started on planning right away and an additional 
$8 million that will be ``unlocked'' once we review the Master Spend 
plan. The Library's fiscal year 2020 request also includes an 
additional $10 million for the project.
    I understand some alterations to the Library's facilities are 
envisioned in this project.

    Question 1. What portion of the fiscal year 2019 funding is 
designated for the Architect of the Capitol? Have those funds been 
transferred to the AOC?
    Answer. To date, no funding has been transferred to the AOC for 
this effort. After the Library receives permission to access the 
remaining $8 million in fiscal year 2018 funding, we expect them to 
transfer funds for the AOC to complete design work.

    Question 2. What portion of the $10 million requested in fiscal 
year 2020 will be for AOC activities related to the Visitor's 
Experience project? How do you foresee those funds being spent, based 
on the conversations the AOC has had with the Library and in 
development of the Master Plan?
    Answer. We anticipate the LOC will be transferring funds to the AOC 
for the construction work associated with the Treasures Gallery. The 
exact amount to be transferred will be determined when the Treasures 
Gallery Design work is complete.

    Question 3. What out-year funding costs do you anticipate the AOC 
may need to carry out this project?
    Answer. Our current arrangement with the Library is that they will 
transfer all the necessary funding to support the design and 
construction requirements for this project. This will include funding 
for a project-funded team to manage the design and construction 
efforts.

    Question 4. How are you working with the Library on the details of 
the project?
    Answer. We are active partners with the Library, supporting the 
development of the master plan scope. Currently we are supporting the 
plan development to include feasibility review and working with the 
Library's cost estimating team to identify all the building-specific 
design and construction requirements.

    Question 5. Do you expect the vision is feasible given the historic 
and structural restrictions in the Jefferson building?
    Answer. The AOC endeavors to support the Library as it develops its 
vision to enhance the visitor experience. Aspects of the Library's 
vision may be feasible, but it has many components for which few 
details are defined and those components require further development to 
determine if they are feasible within the parameters established in our 
Preservation Policy. The AOC's Preservation Policy defines the 
parameters by which the emerging initiatives and priorities can be 
accommodated in our historic buildings in a manner that minimizes 
facility alterations without permanent loss or damage to the historic 
fabric. As with any alteration of historic buildings, we can expect 
challenges as we develop a greater understanding of the impact on the 
historic fabric of the building and work together to develop solutions 
that eliminate those impacts. As the design develops, we are committed 
to work with the Library to provide the guidance necessary to achieve 
an enhanced visitor experience that is aligned with our Preservation 
Policy and our joint stewardship responsibility for the Jefferson 
Building.

    Question 6. How have plans for the building changed as you've moved 
along in the design process?
    Answer. The master planning process has identified several office, 
support and library service areas that will be converted to visitor 
centric spaces. The most significant changes in the current plan 
involve the creation of an orientation experience and education area on 
the ground floor level of the Thomas Jefferson Building.

    Question 7. Are there other alterations needed for the Jefferson 
Building to accommodate more visitors?
    Answer. The AOC will continue to request congressional support for 
the four previously identified exit stair towers to resolve our active 
Office of Congressional Workplace Rights citation related to inadequate 
building egress. The first of these four stairs was funded in fiscal 
year 2018. The Visitor's Experience Project is wholly required to make 
the appropriate code accommodations for any increased visitation. We 
will work to accommodate any systems or site changes the Visitor's 
Experience.
                            storage modules
    The Fiscal Year 2018 Omnibus Act provided a considerable investment 
of $45 million for a ``double-wide'' storage facility. This will be the 
6th and 7th installments in a long-term project to relieve the 
Library's storage problems and to provide long-term, climate-controlled 
storage for our most precious collections.

    Question 1. Is the previous module finally complete?
    Answer. Module 5 was completed in October 2017 and is fully 
operational.

    Question 2. Where are you in terms of the timeline for construction 
of the new $45 million ``double'' module?
    Answer. Module 6 was awarded for construction in December 2018. 
Construction completion is planned for June 2021.

    Question 3. Where in the process is Module 7 and what can we expect 
in fiscal year 2020 and beyond?
    Answer. The design of Module 7 is complete. Target construction 
budget request is in fiscal year 2021.
 impacts of no fiscal year 2020 budget agreement/post-sequester levels
    Under the Budget Control Act, non-defense discretionary funding 
faces a cut of 9 percent in fiscal year 2020. Without a new budget 
agreement in place that lifts caps, we could see the legislative branch 
cut by at least $450 million if cuts are applied across-the-board. This 
would have a devastating impact on the work we've done in recent years 
to restore Library and AOC workforces, modernize IT systems, and chip 
away at backlogs.

    Question 1. Please describe for me how such cuts would impact your 
agency.
    Answer. The AOC will significantly reduce or suspend most employee 
training, reduce or eliminate sidewalk repair around the Capitol 
campus, reduce landscape maintenance and beautification as well as 
reduce routine maintenance and services at the expense of inflationary 
contract and lease increases and reduce preventative maintenance on 
non-critical systems. The AOC will also reduce contract pest control 
and furniture repair services as well as medical evaluation testing and 
environmental surveys, and support to human capital programs and IT 
services designed to secure our network from cyber intrusion. In 
addition, the CVC would reduce their services from 6 days per week to 
5.
    The AOC's ability to execute requested projects will also be 
reduced which will increase the significant backlog of deferred 
facility maintenance.

    Question 2a. What initiatives or projects from previous years would 
be postponed or halt?
    Answer. Ongoing projects funded with prior-year funds will 
continue.

    Question 2b. What would be the impact on your employees?
    Answer. At the fiscal year 2019 annualized continuing resolution 
level, sequestration has the potential to reduce the AOCs workforce by 
approximately -205 FTE from the fiscal year 2019 Enacted level, and 
-245 below the fiscal year 2020 required staffing level. Losses in 
staffing will decrease all aspects of AOC services to our customers 
including electrical, plumbing and paint facility shops, office 
cleaning and visitor services, facility condition assessments, project 
planning and management, construction management and inspection.
    In order to achieve required savings, the AOC will implement a 
hiring freeze, and freeze pay at fiscal year 2019 levels. However, at 
the AOC's average annual attrition rate, the AOC will also need to 
furlough all remaining employees an average of -5 hours per pay period 
over the final 18 pay periods of the fiscal year. However, pending an 
enacted fiscal year 2020 budget, the AOC would work with the Congress 
to request approval to reprogram funds from within available 
appropriations in order to avoid a furlough.
    A furlough will be devastating to the AOC because our craftsmen are 
difficult to replace if they were to leave the agency. They alone 
possess the knowledge, skills and abilitiesto preserve our Nation's 
historic facilities and ensure the Capitol complex retains its 
splendor.

    Question 3. What is the risk to Capitol construction projects if 
they have to be delayed?
    Answer. Under an fiscal year 2019 annualized continuing resolution, 
24 of the AOC's requested 25 Line Item Construction Program projects 
will be curtailed as they will violate the prohibition on initiating 
``new starts'' during a continuing resolution.
    Delays to the AOC's requested $237 million projects request will 
defer construction on the 2021 Presidential Inauguration platform. 
Additionally, costs to projects such as piping replacement, electrical 
system upgrades, HVAC system maintenance, exterior masonry, and roof 
improvements will increase as those projects increase in disrepair.
    In addition to cost increases, deferment of these projects 
increases the risk of maintaining services and providing safe 
accommodations to our customers such as:

  --Campus-wide power delivery failure
  --Likelihood of interruptions to utility services delivery
  --Damage to cultural and historical artifacts at the Library of 
        Congress

    Additionally, reducing our minor construction accounts will 
negatively impact our ability to address emerging maintenance 
requirements and customer-directed initiatives.
                        senate child care needs
    In recent years, the House has taken over the O'Neill building from 
GSA and funded $30 million in renovations to triple the capacity of its 
child care center. I applaud these efforts--all of us here know the 
challenges of having young children and incredibly busy jobs, so having 
closely-located child care makes a difference every day of the week.
    Yet here in the Senate, our own Day Care still remains much too 
small to accommodate the needs of the Senate. We have just 68 slots--
and only 9 for infants. And we have 100 Senator Offices and 16 Standing 
Committees. That's far too small.
    Talk to nearly any parent here on the Hill and they will tell you 
the Senate Day Care is simply not an option due to wait times of years 
and years. I've heard stories of parents getting on the list when they 
get married--they don't even wait for a confirmed pregnancy to put down 
a deposit and get on the wait list.
    AOC completed a study in 2010 about the facility options for 
expanding the Senate Day Care. Unfortunately, the Sequester followed 
soon after, so we were not able to act on any of the options. Our 
Fiscal Year 2019 Legislative Branch Act included language directing GAO 
to work with AOC and other partners on a study to review the current 
operations of the Senate Day Care.

    Question 1. Have you begun discussions with GAO on costs associated 
with the operation of the center that are currently incurred by AOC? 
Can you give us a summary of those discussions? Of the facility options 
you identified in 2010, have you discussed with GAO whether any of 
those options are still available?
    Answer. The AOC met with GAO on March 15, 2019, to discuss services 
provided to SECCC by the AOC. The meeting covered facility operations, 
maintenance, contracts, projects and other costs incurred by the AOC. 
Follow-up cost data regarding these services that the AOC provides for 
the facility was sent to GAO on April 5, 2019.
    Regarding the options provided in 2010, our discussions with GAO 
focused on their task to evaluate the operational costs. We did not 
discuss in any detail the 2010 report. The only discussion with GAO was 
that the AOC was conducting a new study for expansion options.

    Question 2. What is the status of the funding we provided to 
contract with an outside company to complete an assessment of the Day 
Care needs? How long to you anticipate a delay, given that initial bids 
came in well over what we appropriated?
    Answer. The AOC has adjusted the approach to completing the 
assessment. A contract has been awarded to complete a standalone 
program of requirements. This will be used by an Architecture and 
Engineering (A&E) contractor to assess current AOC inventory options 
and real estate options on the market and only fully developing viable 
options. Eliminating non-viable options will allow the contractor to 
focus on potential sites, reducing the costs needed to complete the 
study.

  --Program of Requirements
    --Contract awarded on April 3
    --Final Documents--June 2019

  --A&E Contract
    --Contract Award--June 2019
    --Final Report--November 2019
               gao report on aoc's construction division
    On the morning of our hearing, GAO issued a report on how AOC 
manages its Construction Division's workforce and workload. This report 
was in response to questions and concerns raised by Senator Klobuchar 
and me when 30 Construction Division employees were laid off in 2017, 
with AOC citing a lack of work for the Division. The report contains a 
recommendation that AOC formalize certain processes to ensure it is 
collecting and using the more current information available when making 
workforce decisions.

    Question 1. Has AOC concurred with the recommendation and indicated 
that it will evaluate the need for an AOC-wide policy or process to 
further stabilize the volatility of the Construction Division's 
workload?
    Answer. During my March 27 hearing in front of your committee, I 
stated that we are delighted with the GAO report on the Construction 
Division because its recommendation to formalize the process the 
Construction Division uses to collect information on the jurisdictions' 
construction priorities is completely aligned with the policy changes 
that we have in progress.
    In my March 12, 2019, letter to the GAO, the AOC concurred with the 
GAO report's findings and recommendation. We indicated we will shortly 
issue a formal Planning and Project Management written process to 
implement the recommendation. Although not specifically addressed as a 
GAO recommendation, in the longer term, the AOC will evaluate the 
development of an AOC-wide policy and/or process for further 
stabilizing the volatility of the Construction Division's workload. We 
have already taken positive steps in this direction by inviting the 
Director of the Construction Division to brief the status of the 
division's workload projection to the monthly Facilities Management 
Meeting, which is attended by each jurisdiction head or their senior 
representative.

    Question 2. Can you elaborate on what you plan to do and the 
benefits you expect?
    Answer. At this time, we have drafted a formal Planning and Project 
Management written process which (1) directs monthly Construction 
Division data calls to the jurisdictions to update and confirm 
information (scope, timing, priority) on future notional and potential 
projects, (2) directs a monthly follow-on meeting between the 
Construction Division project data manager and a jurisdiction 
representative to review and validate this information, and (3) directs 
the Director of the Construction Division to brief and discuss the 
Construction Division's workload at an AOC-wide forum on a monthly 
basis to ensure executive engagement. Please note, this is all in 
addition to numerous existing meetings between the Construction 
Division and jurisdictions where they discuss ongoing and upcoming 
construction efforts. The activities outlined by the written process, 
and the focus and intent of the GAO recommendation, are primarily 
directed toward collecting information on priorities and requirements 
regarding future notional and potential work for the purpose of being 
able to project the Construction Division's workload.
    As noted above, the AOC will evaluate the development of an AOC-
wide policy and/or process for further stabilizing the volatility of 
the Construction Division's workload.
    The primary benefits we expect to achieve are increased AOC 
executive-level awareness and engagement with regard to Construction 
Division workload issues and better priority and requirements data for 
the Construction Division to be able to project and manage workload.

    Question 3. AOC has established a steering committee, which 
includes representatives from the jurisdictions, to determine and 
monitor the Construction Division's indirect rate that it charges for 
its projects. The committee intends to monitor and may adjust the rate 
throughout the year. How is this working and do you foresee adjusting 
the rate this year? If so, elaborate on the reasons and expected 
magnitude of the change.
    Answer. Prior to the beginning of each fiscal year, the steering 
committee reviews the estimated indirect rate and associated 
Construction Division spending estimates. The steering committee also 
oversees the distribution of actual indirect costs incurred throughout 
the execution year.
    The steering committee met in September 2018 to review and approve 
the estimated indirect rate for fiscal year 2019. The AOC will convene 
the next steering committee meeting in May to review updated indirect 
cost distributions and begin to prepare for end-of-year cost 
distributions. The Construction Division received positive feedback 
from jurisdiction customers on the transparency, coordination and 
precision provided by this new approach.
    We do not anticipate the need to change the rate during fiscal year 
2019.
       balancing historic preservation needs with campus security
    The AOC's fiscal year 2020 construction request includes a wide 
range of projects, from historic preservation to security and 
infrastructure enhancements. A concern I hear from Senators, staff, and 
other members of the Capitol community is how we strike a balance 
between maintaining the iconic historic nature of these buildings, but 
ensure the campus is safe, not just on the perimeters but also within 
the buildings themselves.

    Question 1. Can you give us some examples of AOC having to balance 
historic preservation with security needs on campus?
    Answer. Our Preservation Policy and Standards require that 
additions, alterations or related new construction not destroy historic 
materials, features or spatial relationships and be reversible to the 
greatest extent possible. Any new work will be differentiated, upon 
close inspection, from old and will be compatible with the historic 
materials, features, size, scale proportions and massing.
    AOC Design Services and the AOC historic preservation officer work 
with our Office of Security Programs and U.S. Capitol Police to 
accommodate emerging security requirements while complying with our 
preservation standards. Examples of recent successful installations 
include:

  --Enhanced Surveillance Capability for the Capitol West Terraces and 
        Lawn: Working jointly with security personnel to understand the 
        camera views required, the AOC designed a solution that 
        incorporated the new cameras on the terrace balustrade 
        lampposts. The original Olmsted Terrace lampposts were restored 
        and the lantern tops were replaced to further conceal the added 
        camera poles. Additionally, new cameras were installed using 
        the design of the 19th century Olmsted lampposts and lantern 
        tops to house and slightly screen the new cameras.

  --U.S. Capitol Roof Cameras: Additional, smaller cameras were mounted 
        on the U.S. Capitol roof with custom-designed brackets that 
        mounted between the roof balustrades. They required no anchors 
        in the historic stone and the smaller camera size minimizes 
        their visibility.

  --Security Separation for Visitor Screening: The AOC worked with the 
        security team on the installation of new ballistic entrance 
        doors and screening vestibule at the Cannon House Office 
        Building Rotunda by maximizing the use of the existing masonry 
        bearing walls for the screening enclosures and modeling the new 
        wood clad steel and glass doors after the historic wooden 
        doors. Security requirements were achieved while reducing the 
        impact on the appearance from the exterior of the Cannon 
        Building or the Rotunda. Rerouting visitor circulation through 
        a side room required a new opening through a plastered masonry 
        wall into the Rotunda which was positioned to align with the 
        interior arcade to blend this new passageway to the 
        architecture of the Rotunda.

  --Ballistic Entry Doors for the Dirksen Senate Office Building: The 
        security team identified a need to improve the security 
        performance of the Dirksen Building by adding new ballistic 
        entry doors on the Constitution Avenue entrance. From a 
        preservation perspective, it was not possible to accommodate 
        that requirement in the ornamental metal and glass entrance of 
        the building. We recommended that the interior vestibule 
        doorway be replaced to meet the security requirement. The new 
        ballistic doors at the Dirksen south entrance retained the 
        visual appearance of the original doorway by replicating the 
        original frame sizes, glass area and molding profiles. The new 
        steel doors were clad with bronze to mimic the original satin 
        bronze door finish. The original doors were retained and 
        stored.

  --Blast Windows and Doors for U.S. Capitol, Cannon, Dirksen, Russell, 
        Longworth and Rayburn Buildings: The requirement was to adjust 
        the proposed frame dimensions, profiles and glass sizes to 
        minimize the visibility of new blast windows and doors. On 
        larger windows such as at the Dirksen and Rayburn Buildings, it 
        was a challenge to accommodate the blast requirement, but we 
        were able to insert structural mullions that aligned with 
        architectural features of the existing monumental openings that 
        allowed the blast design requirements to be met while 
        minimizing the effect on the appearance of the buildings both 
        from the street level and from the interior offices.

    Question 2. How does the need to weigh both of these concerns 
affect the maintenance backlog?
    Answer. The maintenance backlog is defined as deferred maintenance 
and capital renewal that is expected to become deferred maintenance in 
a 5-year period. Deferred maintenance is work that is past due often 
resulting in failure or partial failure of a system. Capital renewal is 
work anticipated to take place prior to its useful life. Most security 
needs on campus involve additional or updated equipment and new 
security requirements. This type of work is generally considered 
capital improvements and is not part of our maintenance backlog; 
although, there are occasions when a security need is addressed in a 
historically sensitive manner and also addresses a maintenance backlog 
item.

                          SUBCOMMITTEE RECESS

    Senator Hyde-Smith. The next hearing of the subcommittee 
will be held on Wednesday, April 3, at 3:00 p.m., at Dirksen 
124, when we will hear the testimony from the Capitol Police 
and the Senate Sergeant at Arms regarding their fiscal budget 
of 2020 request. Until then, the subcommittee stands adjourned.
    [Whereupon, at 4:13 p.m., Wednesday, March 27, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
